<html>
<title> - DETER, DETECT, AND INTERDICT: TECHNOLOGY'S ROLE IN SECURING THE BORDER</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 DETER, DETECT, AND INTERDICT: TECHNOLOGY'S ROLE IN SECURING THE BORDER

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2017

                               __________

                           Serial No. 115-23

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-977 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>                              
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Jeff Duncan, South Carolina          J. Luis Correa, California
Lou Barletta, Pennsylvania           Val Butler Demings, Florida
Will Hurd, Texas                     Nanette Diaz Barragan, California
John H. Rutherford, Florida          Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
     Alison Northrop, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California........................................     4

                               Witnesses

Mr. Todd C. Owen, Executive Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     7
Mr. Scott A. Luck, Acting Deputy Chief, U.S. Border Patrol, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................     7
Mr. Dennis J. Michelini, Acting Executive Director of Operations, 
  Air and Marine Operations, U.S. Customs and Border Protection, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................     7
Ms. Rebecca Gambler, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17

 
 DETER, DETECT, AND INTERDICT: TECHNOLOGY'S ROLE IN SECURING THE BORDER

                              ----------                              


                         Tuesday, July 25, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room HVC-210, Capitol Visitors Center, Hon. Martha McSally 
(Chairwoman of the subcommittee) presiding.
    Present: Representatives McSally, Smith, Hurd, Rutherford, 
Vela, and Barragan.
    Ms. McSally. The Committee on Homeland Security 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine the role of 
technology in the Nation's border security efforts.
    I now recognize myself for an opening statement.
    Border security is a complicated endeavor because there is 
no one-size-fits-all solution. Thinking through what it will 
take to secure the border is the primary responsibility of the 
three agencies represented by our witnesses today. Border 
Patrol is our operational force between the ports of entry. 
CBP's Office of Field Operations' job is to facilitate 
legitimate trade and travel while keeping a list of drugs and 
people from entering our country illegally at the ports of 
entry.
    Air and Marine is the supporting element, which provides 
air and maritime interdiction support and situation awareness 
for critical operations on the ground. All three of these 
critical border security components rely heavily on technology 
to accomplish their mission.
    Indeed, technology is a crucial force multiplier, and part 
of our multi-layered approach of the right mix of 
infrastructure, personnel, and technology that we have used for 
at least 20 years now.
    Instead of focusing solely on the gadgets and the gizmos 
and the many repeated failures we have had in the procurement 
process at CBP, I think it is important to think strategically 
about the decision-making process.
    Those who aim to exploit our border for illicit purposes. 
Destructing that process by leveraging technology will help 
Customs and Border Protection better use the allocated funding 
to secure the border in the long term.
    So today I want to take a hard look at the role that 
technology plays in helping to predict, deter, detect, and 
finally interdict the illicit activity so prevalent along the 
Southwest Border.
    Deterrence is the ideal goal in the Nation's border 
security effort, yet it is difficult to measure or accomplish. 
Discouraging bad actors from ever crossing the border is our 
best defense. If our security posture is robust, individuals 
may decide it is not worth the risk to smuggle a load of drugs 
across the Arizona desert or through a busy port of entry.
    Essentially, deterrence is predicated on two things: First 
the perception that illegal smuggling across the border is a 
costly endeavor; and second that the likelihood of success is 
low.
    But if we cannot successfully deter illegal behavior by 
communicating the message that the border as an inhospitable 
place to conduct illicit cross-border activity, then we have to 
shift to detection, surveillance, and interdiction.
    That is where the role of technology becomes indispensable 
because of the rugged and remote nature of many parts of the 
border. Terrain, the prevalence of roads and other 
infrastructure on both sides of the border, and CBP's security 
posture in any given area should inform the tools we use to 
detect, monitor, and surveil the border.
    On a consistent basis, these tools are critical for what is 
commonly referred to as situational awareness, or SA, a basic 
requirement if the goal is to gain operational control of the 
Southern Border. Cameras, night vision devices, motion sensors, 
radar, X-ray devices, and other surveillance equipment have 
become essential elements of our robust security operations.
    These technologies have enhanced agent and officer safety, 
provided constant monitoring of difficult-to-access areas, and 
enhanced agent and officer ability to interdict the criminal 
activity. Aviation assets, such as unmanned aerial vehicles 
equipped with advanced radar capabilities, have also refined 
our understanding of the significant threat that exists along 
the border and helped to reposition and redeploy assets as 
flows and vulnerabilities shift.
    I understand that Border Patrol and CBP Air and Marine 
continue to pilot tactical UAVs that have the potential to 
revolutionize the way we conduct border security operations at 
the field agent level. I look forward to a progress update in 
light of the additional funds Congress has provided for this 
particular effort.
    A secure border is the outcome that American people demand, 
regardless of what steps that we all take to get there. With 
this in mind, Congress has repeatedly asked one consequential 
question. What will it take to gain this situational awareness 
and operational control of the Southwest Border?
    Up until now, the answers we have received have been 
limited or unsupported by our acquisition process similar to 
that of the Defense Department. In short, they have been 
insufficient. At best, they have been some best guesses.
    Congress expects the Border Patrol Office of Field 
Operations and Air and Marine to be able to quickly identify 
and justify the technological needs required to secure the 
border. So far the Border Patrol and Air and Marine operations 
have been involved in an effort called the Capability Gap 
Analysis Process or C-GAP.
    C-GAP is a scenario-based exercise designed to ferret out 
tactical weaknesses in our border security defenses and 
hopefully inform the technological budget process. Putting more 
technology on the border will increase our chances of 
apprehending dangerous individuals and interdicting lethal 
drugs like heroin and Fentanyl that cause so much death and 
pain for our fellow American citizens.
    Thanks for being here to discuss the many ways in which we 
can be using technology to secure our Nation's border, and I 
look forward to the witnesses' testimony.
    [The statement of Ms. McSally follows:]
                 Statement of Chairwoman Martha McSally
                             July 25, 2017
    Border security is a complicated endeavor because there is no one-
size-fits-all solution. Thinking through what it will take to secure 
the border is primary responsibility of the three agencies represented 
by our witnesses today.
    The Border Patrol is our operational force between the ports of 
entry. CBP's Office of Field Operations job is to facilitate legitimate 
trade and travel while keeping illicit drugs and people from entering 
our country illegally at the ports of entry. Air and Marine is a 
supporting element--which provides air and maritime interdiction 
support and situational awareness for critical operations on the 
ground.
    All three of these critical border security components rely heavily 
on technology to accomplish their mission. Indeed, technology is a 
crucial force multiplier, and part of a multi-layered approach of the 
``right mix of infrastructure, personnel, and technology,'' that we 
have used for at least 20 years.
    Instead of focusing solely on the gadgets and gizmos and the many 
repeated failures of the CBP procurement process, I think it is 
important to think strategically about the decision-making process of 
those who aim to exploit our border for illicit purposes.
    Disrupting that process by leveraging technology will help Customs 
and Border Protection better use the allocated funding to secure the 
border in the long term.
    So today, I want to take a hard look at the role that technology 
plays in helping to predict, deter, detect, and finally to interdict 
the illicit activity so prevalent along the Southwest Border.
    Deterrence is the ideal goal of the Nation's border security 
effort, yet is difficult to measure or accomplish. Discouraging bad 
actors from ever crossing the border is the best defense. If our 
security posture is robust, individuals may decide it's not worth the 
risk to smuggle a load of drugs across the Arizona desert or through a 
busy port of entry.
    Essentially, deterrence is predicated on two things: First, the 
perception that illegal smuggling across the border is a costly 
endeavor; and second, that the likelihood of success is low.
    If we cannot successfully deter illegal behavior by communicating 
the message that the border is an inhospitable place to conduct illicit 
cross-border activity, then we have to shift into detection, 
surveillance, and interdiction. That is where the role of technology 
becomes indispensable because of the rugged and remote nature of many 
parts of the border.
    Terrain, the prevalence of roads and other infrastructure on both 
sides of the border, and CBP's security posture in any given area 
should inform the tools used to detect, monitor, and surveil the 
border.
    On a consistent basis, these tools are critical for what is 
commonly referred to as situational awareness--a basic requirement if 
the goal is to gain operational control of the border.
    Cameras, night vision devices, motion sensors, radar, X-ray devices 
and other surveillance equipment, have become essential elements of our 
border security operations.
    These technologies have enhanced agent and officer safety; provided 
constant monitoring of difficult-to-access areas, and enhanced agent 
and officer ability to interdict criminal activity.
    Aviation assets such as Unmanned Aerial Vehicles, equipped with 
advanced radar capabilities, have also refined our understanding of the 
significant threat that exists along the border and has helped 
reposition and redeploy assets as flow and vulnerabilities shift.
    I understand that the Border Patrol and CBP Air and Marine continue 
to pilot tactical UAVs that have the potential to revolutionize the way 
we conduct border security operations at the field agent level. I look 
forward to a progress update in light of the additional funds Congress 
has provided for this effort.
    A secure border is the outcome the American people demand--
regardless of what steps we take to get there.
    With this in mind, Congress has repeatedly asked one consequential 
question: What will it take to gain situational awareness and 
operational control of the Southwest Border?
    Up until now, the answers we have received have been limited, or 
unsupported by a requirement process similar to that of the Defense 
Department. In short, they have been insufficient; at best, they have 
been guesses.
    Congress expects the Border Patrol, the Office of Field Operations, 
and Air and Marine to be able to quickly identify, and justify, the 
technological needs required to secure the border.
    So far, the Border Patrol and Air and Marine Operations have been 
involved in an effort called the Capability Gap Analysis Process, or C-
GAP. C-GAP is a scenario-based exercise designed to ferret out tactical 
weaknesses in our border security defenses and hopefully inform the 
technological budget process.
    Putting more technology on the border will increase our chances of 
apprehending dangerous individuals and interdicting lethal drugs like 
heroin and fentanyl that cause so much death and pain for our fellow 
American citizens.
    Thank you for being here to discuss the many ways in which we can 
be using technology to secure our Nation's borders. I look forward to 
the witness's testimony.

    Ms. McSally. The Chair now recognizes the Ranking Member, 
the substitute Ranking Member, the gentleman from California, 
Mr. Correa, for opening statement.
    Mr. Correa. Thank you, Madam Chairwoman. I am pleased to 
join you for today's hearing examining U.S. Customs and Border 
Protection's efforts to enhance border security with the use of 
technology.
    Ranking Member Vela can't join us today due to some other 
commitments, so I am happy to step in in his stead. Over the 
past several years, we have seen technology used to improve 
situational awareness, enhance security, and to improve 
legitimate commerce across our borders.
    While Secretary Kelly and many lawmakers in Congress talk 
about the value of technology to better secure our borders, we 
remain concerned that we are not utilizing technology to its 
fullest benefits. We know the new Trump administration has 
prioritized physical barriers over technology to secure the 
border.
    President Trump ran for office with the promise to build a 
wall to stop undocumented immigrants and to curb drug 
smuggling. While experts before this committee have told us 
that a border wall will not accomplish either one of these 
goals, earlier this month the Appropriations Committee approved 
$1.6 billion for the construction--or I should say continued 
construction of that border wall.
    While we allocate billions in a border wall that may not 
work, I am hearing stories of many of our border agents not 
being able to talk to each other using their existing 
equipment. I have heard some of these folks tell me that they 
can see each other 2- to 300 yards away, yet they can't use 
some of their walkie-talkies. To me that is just a sad 
testament to the situation we have with reference to existing 
technology.
    With limited resources for technology on the border, it is 
important that Customs and Border get it right when it comes to 
procuring, testing, and employing technology along the border. 
The Department of Homeland Security has for years attempted to 
deploy various kinds of technology to the borders with mixed 
results at best.
    Identifying, inquiring, and deploying the right mix of 
border security technology isn't easy, but we got to get it 
right. A million here, a million there translates to a billion 
here and a billion there. Those dollars, we can only spend 
once. Those are very precious taxpayer dollars.
    We know that the flow of border crossers and illicit 
traffic changes from day-to-day, and our technology and our 
tactics need to evolve along with those changes. This is 
another reason, a primary reason why a border wall, in my 
opinion, is not a solution to our border security challenges. 
Remember, we have two borders, and we have two oceans.
    America's borders are varied as well with different 
geography, terrain, and climate. Given DHS's poor track record 
and seemingly unending shift to physical barriers of 
technology, I remain concerned about our border security and 
technology deployment.
    I would like to hear today CBP justify why a wholesale 
physical infrastructure plan would be more effective than 
deploying strategic technological assets along the border. As 
Secretary Kelly has said here numerous times, the border, 
rather, we need a multi-layered defense system.
    I also hope to hear from our GAO witness today about their 
examination of CBP's metrics to measure the performance of 
border technologies and whether DHS's procurement and 
acquisition management processes are sound or still need to be 
improved.
    Also in light of the mess of acquisition management 
resources that would be needed to be dedicated to constructing 
a physical wall, I would like to know how CBP will manage 
existing technology contracts as it shifts to focus on 
personnel to man the new wall.
    Finally, I hope we can have a frank discussion with our 
witnesses about how CBP can best position its on-going border 
security technology programs for success in this environment of 
scarce resources. I thank the witnesses for joining us here 
today.
    I yield back my time, Madam Chair.
    Ms. McSally. The gentleman yields back.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record. We are pleased to 
be joined today by four distinguished witnesses to discuss this 
important topic.
    Mr. Todd Owen is the executive assistant commissioner for 
the Office of Field Operations. Prior to becoming executive 
assistant commissioner, Mr. Owen served in various roles within 
CBP's Office of Strategic Trade and most recently, as the 
director of field operations at CBP's Los Angeles field office.
    Mr. Scott Luck began his career with the Border Patrol in 
1986 and currently serves as the acting deputy chief of the 
U.S. Border Patrol. Prior to becoming acting deputy chief, Mr. 
Luck was the Chief of Operations Division for the U.S. Border 
Patrol.
    Dennis J. Michelini serves as the acting executive director 
of operations for U.S. Customs and Border Protection's Air and 
Marine Operations Division. Mr. Michelini began his career with 
CBP in 1995 where he served as an agent and a pilot. Prior to 
becoming the acting executive of operations, he served as 
director of the northern region and director of air operation 
strategy.
    Ms. Rebecca Gambler is director of the U.S. Government 
Accountabilities Office Homeland Security and Justice Team, 
where she leads GAO's work on border security, immigration and 
the Department of Homeland Security's management and 
transformation.
    The witnesses' full written statement will appear in the 
record.
    The Chair now recognizes Mr. Owen for 5 minutes to testify.

 STATEMENT OF TODD C. OWEN, EXECUTIVE ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Owen. Good morning, Chairwoman McSally, Ranking Member 
Vela, Mr. Correa, esteemed Members of the subcommittee. Thank 
you for the opportunity to testify today alongside my 
colleagues from the U.S. Border Patrol and Air and Marine 
Operations to discuss the role of CBP's Office of Field 
Operations in detecting and interdicting illegal drugs and 
other dangerous materials at our ports of entry.
    Before my appointment as the executive assistant 
commissioner of CBP's Office of Field Operations in February 
2015, I served in several relevant roles within CBP, most 
recently as the director of field operations for the greater 
Los Angeles area and previously as the executive director over 
all of CBP's cargo security programs.
    I know first-hand how valuable technology is to CBP's 
ability to detect materials that potentially pose a threat to 
the United States.
    Used in conjunction with CBP's risk-based targeting 
capabilities and security partnerships, advanced detection 
technology at our ports of entry is an essential component in 
our mission to intercept illegal drugs and other dangerous 
materials before they cross our borders.
    Smugglers use a wide variety of tactics and techniques for 
concealing drugs and other contraband through the ports of 
entry. CBP officers regularly find drugs concealed on 
individuals, hidden inside vehicle seat cushions, gas tanks, 
dashboards, and tires, within packaged food, household goods, 
and hygiene products, in checked luggage, and in construction 
materials transported on commercial trucks.
    This past weekend, CBP officers in Laredo discovered and 
seized 147 pounds of cocaine hidden in the gas tank of a 
commercial bus. While in Nogales, CBP officers intercepted 
three internal carriers of heroin and methamphetamine. All 
three U.S. citizen females were traveling together and had 
entered through the pedestrian lanes.
    Yesterday in Brownsville, CBP officers seized 118 pounds of 
methamphetamine concealed in tires of a passenger vehicle. 
These are but three real-life examples of the threats that CBP 
officers address every day.
    To counter the full range of concealment techniques, CBP 
incorporates advanced technology to maintain a robust cargo, 
commercial conveyance, and vehicle inspection regimes at our 
ports of entry, including the use of non-intrusive inspection 
equipment or NII equipment, as well as radiation detection 
technologies.
    NII technologies deployed to our Nation's land, sea, and 
air ports of entry include large-scale X-ray and gamma-ray 
imaging systems, as well as a variety of portable and hand-held 
technologies.
    These technological systems enable CBP officers to examine 
cargo conveyances such as sea containers, commercial trucks, 
railcars, and privately-owned vehicles for the presence of 
contraband without physically opening or unloading them.
    NII equipment is a force multiplier, which allows CBP to 
work smarter and faster in detecting contraband while 
expediting legitimate trade and travel. Detection technology is 
a critical contributor toward enforcement actions at ports of 
entry.
    In 2016 large-scale NII systems were used to conduct more 
than 6.5 million examinations resulting in more than 2,600 
seizures and over 359,000 pounds of seized narcotics.
    In partnership with the DHS Domestic Nuclear Detection 
Office, CBP has also deployed nuclear and radiological 
detection equipment such as radiological detection portal 
monitors, radiation isotope identification devices, and 
personal radiation detectors Nation-wide.
    Using radiation portal monitors, CBP is able to scan 100 
percent of mail and express consignment parcels, 100 percent of 
all trucks and personally-owned vehicles arriving from Canada 
and Mexico, and nearly 100 percent of all arriving maritime 
containerized cargo for the presence of radiological or nuclear 
materials.
    In conjunction with CBP's many other initiatives, 
advancements in cargo, conveyance, and vehicle screening 
technology significantly increases CBP's ability to detect and 
interdict illegal drugs, radiological weapons and other 
dangerous materials, and continues to be a cornerstone of CBP's 
multi-layered border security strategy.
    Thank you for the opportunity to testify today, and I am 
happy to answer any of your questions.
    [The joint prepared statement of Mr. Owen, Mr. Luck, and 
Mr. Michelini follows:]
     Joint Prepared Statement of Todd C. Owen, Executive Assistant 
   Commissioner, Office of Field Operations, Department of Homeland 
   Security; Scott A. Luck, Acting Deputy Chief, U.S. Border Patrol, 
   Department of Homeland Security; and, Dennis J. Michelini, Acting 
Executive Director, Operations, Air and Marine Operations, U.S. Customs 
         and Border Protection, Department of Homeland Security
                             July 25, 2017
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the committee. It is a pleasure to appear before you today on behalf 
of U.S. Customs and Border Protection (CBP) to discuss how border 
security technology enables us to achieve our strategic and operational 
border security objectives, specifically in combating the flow of 
illegal aliens and dangerous contraband into the United States.
    Along the more than 5,000 miles of border with Canada, 1,900 miles 
of border with Mexico, approximately 95,000 miles of shoreline, and at 
328 ports of entry (POE) and more than 40 countries across the globe, 
CBP's U.S. Border Patrol (USBP), Air and Marine Operations (AMO), and 
Office of Field Operations (OFO) secure our borders and associated air 
space and maritime approaches to prevent illegal entry of people and 
materials, including dangerous drugs, into the United States. The 
border environment in which CBP works is dynamic and requires continual 
adaptation to respond to emerging threats and changing conditions. We 
appreciate the partnership and support we have received from this 
committee, whose commitment to the security of the American people has 
enabled the continued deployment of advanced technology assets needed 
to secure the border.
    As President Trump has stated, ``Homeland Security is in the 
business of saving lives, and that mandate will guide our actions.'' 
Through a series of Executive Orders (EOs), the President has taken 
steps to enhance border security, promote public safety, minimize the 
threat of terrorist attacks by foreign nationals, and protect American 
workers from unfair foreign competition. The President's fiscal year 
2018 budget proposes significant investments to support all of those 
goals while implementing the EOs.
    In January, the President signed the Executive Order entitled 
Border Security and Immigration Enforcement Improvements (EO 13767). 
Included in the budget is a total of $2.6 billion in enhancements in 
high-priority border security technology, tactical infrastructure, 
assets, and equipment, including $975 million for border security 
technology, assets, and equipment.
    Our testimony today discusses some of the advanced technology used 
by CBP front-line agents and officers to deter, detect, and interdict 
illegal cross-border activity, at and between POEs. Technology enhances 
CBP's operational capabilities by increasing our ability to detect and 
apprehend individuals illegally crossing the border, to detect 
dangerous goods and materials concealed in cargo and vehicles, and to 
detect and interdict illegal activity in the air and maritime domains. 
Advanced detection and surveillance technology is a critical element of 
CBP's multi-layered border security strategy to deploy the right mix of 
personnel, technology, and tactical infrastructure to enable us to meet 
the everyday challenges of a dynamic border threat environment. For 
CBP, the use of technology in the border environment is an invaluable 
force multiplier that increases situational awareness and allows us to 
detect illegal activity--including unauthorized border-crossers--and 
interdict dangerous drugs--and those who attempt to smuggle them--
faster and safer.
                    technology at the ports of entry
    Smugglers use a wide variety of tactics and techniques for 
concealing drugs and other contraband through POEs. CBP officers 
regularly find drugs concealed in body cavities, taped to bodies (body 
carriers), hidden inside vehicle seat cushions, gas tanks, dash boards, 
tires, packaged food, household and hygiene products, checked luggage, 
and concealed in construction materials on commercial trucks. CBP 
incorporates advanced detection equipment and technology, including the 
use of Non-Intrusive Inspection (NII) equipment and radiation detection 
technologies to maintain robust cargo, commercial conveyance, and 
vehicle inspection regimes at our POEs.
    NII technology is a critical element in CBP's ability to detect 
contraband as well as materials that could pose nuclear and 
radiological threats. These systems enable CBP officers to examine 
cargo conveyances such as shipping containers, commercial trucks, and 
rail cars, as well as privately-owned vehicles, for the presence of 
contraband without physically opening or unloading them. This allows 
CBP to work smarter and faster in detecting contraband, while 
expediting legitimate trade and travel. NII technologies deployed to 
our Nation's land, sea, and air POEs include large-scale X-ray and 
gamma-ray imaging systems, as well as a variety of portable and 
handheld technologies.
    As of July 1, 2017, 301 Large-Scale (LS) NII systems are deployed 
to, and in between, our POEs. In fiscal year 2016, LS-NII systems were 
used to conduct more than 6.45 million examinations resulting in more 
than 2,600 seizures and over 359,000 pounds of seized narcotics. NII 
systems are particularly valuable in detecting concealed contraband in 
vehicles and cargo containers. With the help of NII, on July 22, 2017, 
CBP officers assigned to the San Ysidro POE seized 4.54 kilograms (10 
pounds) of fentanyl, 11.31 kilograms (24.96 pounds) of methamphetamine, 
and 1.10 kilograms (2.43 pounds) of mannitol hidden in the quarter 
panels of a 2012 Toyota Corolla driven by a 26-year-old female U.S. 
citizen accompanied by a 27-year-old female U.S. citizen passenger. The 
budget proposes $109.2 million to build upon prior year investments and 
will be used to recapitalize the current small-scale (SS) and LS NII 
technology fleet. This funding will allow CBP to remain on track to 
ensure the NII fleet is operating within its service life by fiscal 
year 2024, and will help CBP continue to use NII to safely, quickly, 
and effectively detect a wide range of contraband imported using a 
variety of conveyances, thereby facilitating lawful trade and travel.
    Personal vehicles are not the only means by which smugglers attempt 
to transport illegal drugs and other contraband across the border. For 
example, just a couple of weeks ago, CBP officers using NII equipment 
and canine teams at the Pharr International Bridge cargo facility 
discovered 2,746 pounds of marijuana and 50.70 pounds of cocaine, worth 
almost $1 million, over the course of just 3 days.\1\
---------------------------------------------------------------------------
    \1\ https://www.cbp.gov/newsroom/local-media-release/cbp-field-
operations-seizes-over-900k-marijuana-and-cocaine-commercial.
---------------------------------------------------------------------------
    Furthermore, as an integral part of the DHS comprehensive strategy 
to combat nuclear and radiological terrorism, CBP scans all arriving 
conveyances and containers with radiation detection equipment prior to 
release from the POE. In partnership with the DHS Domestic Nuclear 
Detection Office (DNDO), CBP has deployed nuclear and radiological 
detection equipment, including Radiation Portal Monitors (RPM), 
Radiation Isotope Identification Devices (RIID), and Personal Radiation 
Detectors (PRD) to 328 POEs Nation-wide.\2\ Utilizing RPMs, CBP is able 
to scan 100 percent of all mail and express consignment mail and 
parcels; 100 percent of all truck cargo; 100 percent of personally-
owned vehicles arriving from Canada and Mexico; and nearly 100 percent 
of all arriving sea-borne containerized cargo for the presence of 
radiological or nuclear materials. Since the inception of the RPM 
program in 2002 through June 2017, CBP has scanned approximately 1.4 
billion conveyances for radiological contraband, resulting in more than 
6.1 million alarms, all of which have been successfully resolved at the 
proper level.
---------------------------------------------------------------------------
    \2\ As of June 30, 2017, CBP currently has 1,276 RPMs, 3,316 RIIDs, 
and 34,387 PRDs operational systems deployed Nation-wide.
---------------------------------------------------------------------------
    In conjunction with CBP's many other initiatives, advancements in 
cargo and conveyance screening technology provide CBP with a 
significant capacity to detect dangerous materials and other contraband 
and continue to be a cornerstone of CBP's multi-layered security 
strategy.
                technology investments along the border
    Thanks to the support of Congress, CBP continues to deploy proven, 
effective technology to strengthen border security operations between 
the POEs--in the land, air, and maritime environments. With enhanced 
detection and surveillance capabilities, USBP and AMO can improve their 
situational awareness remotely, direct a response team to the best 
interdiction location, and warn the team of any additional danger 
otherwise unknown along the way. As a result, these investments 
increase CBP's visibility of illegal activity along the border, our 
operational capabilities, and the safety of front-line law enforcement 
personnel. The terrain along the border between the United States and 
Mexico is extremely diverse, consisting of desert landscape, 
mountainous terrain, and urban areas. Tailored to address an area's 
risk and environmental challenges, CBP deploys a combination of fixed 
and mobile technology assets, with short-, medium-, and long-range 
persistent surveillance capabilities to maintain situational awareness 
of the varying border environments.
Fixed, Persistent Surveillance
    Integrated Fixed Tower (IFT) systems are one of technologies used 
by USBP that are being deployed to the Southwest Border in Arizona. 
IFTs provide long-range, persistent surveillance. An IFT system 
automatically detects with radars, identifies and classifies items of 
interest with day and night cameras, and tracks the items of interest 
at the Command and Control Center using a COP that integrates data, 
video, and geospatial locations of selected items of interest. The 
first IFT system became operational in the Nogales Area of 
Responsibility in August 2015. The second IFT system became operational 
in May in the Douglas Area of Responsibility. The third system has been 
installed and will undergo system acceptance testing this September in 
the Sonoita Area of Responsibility. The budget supports these critical 
assets by including $22.4 million in fiscal year for operations and 
maintenance of the IFT program and $17.4 million for IFT program 
procurement, construction, and improvements.
    Remote Video Surveillance Systems (RVSS) are another fixed 
technology asset used by USBP in select areas along the Southwest and 
Northern Borders. These systems provide short-, medium-, and long-
range, persistent surveillance from towers or other structures. The 
RVSS uses cameras, radio, and microwave transmitters to send video to a 
control room, enabling the control room operator to remotely detect, 
identify, classify, and track targets using the video feed. Existing 
RVSSes are being upgraded with newer cameras and additional towers. The 
budget includes $20.0 million in fiscal year to sustain RVSS. An 
additional $46.2 million is provided for procurement, construction, and 
improvements. This funding will be used to support the deployment of 
the RVSS capability to the Rio Grande Valley Sector.
    In some areas along the Southwest Border, USBP also uses Unattended 
Ground Sensors (UGS), which provide short-range, persistent 
surveillance. These sensors support our capability to detect, and, to a 
limited extent, track and identify subjects. Sensor capabilities 
include seismic, passive infrared, acoustic, contact closure, and 
magnetic, although these capabilities are not necessarily available in 
all deployed UGS. When a ground sensor is activated, an alarm is 
communicated to an operations center. Some UGS are used in conjunction 
with Imaging Sensors (IS). The UGS/IS include an imaging capability to 
transmit images or video back to the operations center. As with UGS, 
UGS/IS are monitored in a centralized system and geospatially tracked.
    Fixed systems provide persistent surveillance coverage to 
efficiently detect unauthorized border crossing and incursions by 
suspected drug smugglers. Once detection is confirmed, USBP can quickly 
deploy the appropriate personnel and resources to interdict. Without 
fixed-system technology such as IFT, RVSS, and UGS, USBP's ability to 
detect, identify, classify, and track illicit activity would be 
significantly limited.
Mobile and Relocatable Capabilities
    Working in conjunction with fixed surveillance assets, USBP also 
uses mobile and relocatable systems to address areas where rugged 
terrain and dense ground cover may allow adversaries to exploit blind 
spots or avoid the coverage of fixed systems. Mobile and relocatable 
technology assets provide USBP with the flexibility to adapt to 
changing border conditions and threats.
    Along the Southwest Border, Mobile Surveillance Capability (MSC) 
systems provide long-range, mobile surveillance. They include radar and 
camera sensors mounted on USBP vehicles. An agent deploys with the 
vehicle to operate the system, which automatically detects and tracks 
items of interest and provides the agent/operator with data and video 
of the observed subject.
    Mobile Vehicle Surveillance Systems (MVSS) are short-, and medium-
range, mobile surveillance equipment. They consist camera sensors on 
telescoping masts mounted on USBP vehicles. A USBP agent deploys with 
the system, which detects, tracks, identifies, and classifies items of 
interest using the video feed. The agent/operator observes activity on 
the video monitor to detect intrusions and assist agents/officers in 
responding to those intrusions. The budget includes $3.2 million to 
provide operation and sustainment for MVSS, and an additional $1.6 
million for procurement, construction, and improvements to fulfill 
operational needs on the Southern and Northern Borders.
    Another system is the Agent Portable Surveillance System (APSS). 
Mounted on a tripod, it provides medium-range, mobile surveillance and 
can be transported by two or three USBP agents. Two agents remain on-
site to operate the system, which automatically detects and tracks 
items of interest and provides the agent/operator with data and video 
of selected items of interest.
    CBP's Tactical Aerostats and Re-locatable Towers program, 
originally part of the Department of Defense (DOD) re-use program, uses 
a mix of aerostats, towers, cameras, and radars to provide USBP with 
increased situational awareness over a wide area. This capability has 
proven to be a vital asset in increasing USBP's ability to detect, 
identify, classify, and track activity. Since initial deployment in 
2012, these systems have been responsible for detecting more than 
180,000 illegal border incursions of aliens and smugglers, leading to 
the seizure of approximately 180 tons of narcotics and related 
contraband. In this fiscal year alone, USBP agents, with the assistance 
of existing aerostats and re-locatable towers, have seized 62 tons of 
narcotics, and caught more than 20,000 illegal border crossers detected 
by aerostats. The budget includes $34.8 million in fiscal year for the 
Tactical Aerostats and Re-locatable Towers Program to fund continued 
operations and maintenance costs.
    Technology is critical to USBP border security operations. A 
tailored blend of complementary fixed, mobile, and portable 
surveillance systems increases USBP's effectiveness in targeting a 
high-risk areas, enabling rapid-response strategies to maximize limited 
manpower, and adjusting to seasonal and periodic traffic patterns.
               technology in the air and maritime domains
    AMO increases CBP's situational awareness, enhances its detection 
and interdiction capabilities, and extends our border security zones, 
offering greater capacity to stop threats before they reach our shores. 
Through the use of coordinated and integrated surveillance 
capabilities--including aviation, marine, tethered aerostats, and 
integrated, ground-based radars--AMO detects, interdicts, and prevents 
acts of terrorism and the unlawful movement of people, illegal drugs, 
and other contraband toward or across the borders of the United States. 
These assets provide multi-domain awareness for our partners across the 
Department, as well as critical aerial and maritime surveillance, 
interdiction, and operational assistance to our ground personnel.
    AMO's maritime assets are tailored to the conditions of the 
environments in which we operate, and are equipped with the 
capabilities required to interdict attempted illicit smuggling of drugs 
and undocumented aliens. Often there is little time to interdict 
inbound suspect vessels, and AMO has honed its maritime border security 
response capability around rapid and effective interception, pursuit, 
and interdiction of these craft.
    AMO employs high-speed Coastal Interceptor Vessels (CIV) that are 
specifically designed and engineered with the speed, maneuverability, 
integrity, and endurance to intercept and engage a variety of suspect 
non-compliant vessels in offshore waters, as well as the Great Lakes. 
Furthermore, AMO's Small Vessel Stand-off Detection radiation detection 
capability increases the probability of detecting radiological and 
nuclear materials that might be used to attack the country. The 
transportable equipment is effective against small private or 
commercial vessels and can indicate a potential threat in advance of a 
boarding.
    The budget also seeks significant investments in our aircraft 
fleet. For example, the budget includes $55.5 million in fiscal year to 
purchase two KA-350ER multi-role enforcement aircraft (MEA). The MEA is 
the optimal sensor-equipped aircraft for surveillance operations in 
regions such as the Southern Border, Northern Border, and maritime 
environments where terrain, weather, and distance pose significant 
obstacles to border security operations. The MEA further serves as a 
force multiplier for law enforcement and emergency response personnel, 
facilitating the rapid-response deployment of equipment, canines, and 
people. The multiple roles of the MEA include presently maritime with 
planned ground and air surveillance as well as air-to-air tracking and 
LETC.
    P-3 Long-Range Trackers and Airborne Early Warning Aircraft provide 
critical detection and interdiction capability in both the air and 
marine environment. Their sophisticated sensors and high-endurance 
capability greatly increase AMO's range to counter illicit trafficking. 
CBP P-3s are an integral part of the successful counter-narcotic 
missions operating in coordination with the Joint Interagency Task 
Force--South. The P-3s patrol a 42 million-square-mile area that 
includes more than 41 nations, the Pacific Ocean, Gulf of Mexico, 
Caribbean Sea, and seaboard approaches to the United States. In fiscal 
year 2016, CBP's P-3 operational efforts led to the total seizure or 
disruption of more than 193,000 pounds of cocaine with an estimated 
wholesale value of $2.5 billion.
    Helicopters are also critical components of AMO's aircraft fleet. 
UH-60 Black Hawk helicopters are critical to border security 
operations, being the only helicopters in our fleet with medium-lift 
capability (i.e., the ability to carry eight agents with full gear). 
The UH-60 is rugged enough to support interdiction and life-saving 
operations in hostile environments, at high altitudes in the desert, 
over open water, and in extreme cold. The budget includes $14.1 million 
in fiscal year to purchase one UH-60 Medium-Lift Helicopter (MLH).
    Another important asset is the DHC-8 Maritime Patrol Aircraft 
(MPA). It bridges the gap between strategic assets, such as the P-3 and 
Unmanned Aircraft System (UAS), and the smaller assets providing 
support in littoral waters.
    AMO's aircraft have received a number of technological upgrades to 
increase their utility. Avionics upgrades to the AS-350 helicopter 
allow operators to focus more of their attention on the mission, making 
them more effective. AMO has also added electro-optical infrared 
detection technology to its fixed-wing, light observation aircraft, 
greatly increasing its tactical capabilities.
    UASs are an increasingly important part of CBP's layered and 
integrated approach to border security. The UAS consists of an unmanned 
aircraft, sensors, communication packages, pilots, and ground control 
operators. UASs are used for surveillance, detection, and other mission 
requirements along the Southwest Border, Northern Border, and in the 
drug source and transit zones. The UAS program has achieved over 43,500 
flight hours since it began in fiscal year and has been credited with 
interdicting or disrupting the movement of cocaine and marijuana with 
an estimated wholesale value of $170 million. CBP can equip four UAS 
aircraft with Vehicle and Dismount Exploitation Radar (VADER) sensor 
systems, which can detect human movement along the ground. Since 2012, 
VADER has detected over 51,600 people moving across the Southwest 
Border.
    UAS and P-3 aircraft are equipped with technology that provides 
full-motion video capture for real-time and forensic analysis. This 
advanced detection and communication system enables AMO to disseminate 
live images and other sensor data to operational users, increasing 
response effectiveness and speed.
    The budget proposes $2.5 million to expand the small Unmanned 
Aircraft Systems (sUAS) pilot projects and develop an official program 
of record. USBP needs this capability to surveil locations between the 
POEs in remote, isolated, and inaccessible portions of our borders. The 
sUAS needs to provide ground reconnaissance, surveillance, and tracking 
capabilities to support the USBP surveillance tasks of predicting, 
detecting, tracking, identifying, and classifying suspected items of 
interest. The ability to persistently and discreetly surveil remote 
areas along portions of the border is critical to USBP's ability to 
secure the border.
    Perhaps the most important advancements come in the area of data 
integration and exploitation. New downlink technology allows AMO to 
provide a video feed and situational awareness to its law enforcement 
partners in real-time. In addition, the Minotaur mission integration 
system will allow multiple aircraft to share information from multiple 
sources, providing a never-before-seen level of air, land, and maritime 
domain awareness. As the Minotaur system evolves, it will provide even 
greater awareness for a larger number of users.
    AMO also combats airborne and maritime smuggling with an integrated 
long-range radar architecture comprised of ground-based radars and 
elevated radars deployed on tethered aerostats. AMO, in partnership 
with DOD, operates and maintains a network of more than 120 long-range 
radars providing a wide-area, persistent surveillance capability to 
detect and identify cooperative and non-cooperative aircraft traveling 
within or near the United States and crossing its borders. This network 
provides AMO the capability to detect and respond to air and maritime 
threats to the homeland, including organizations attempting to traffic 
contraband into the United States.
    AMO's Tethered Aerostat Radar System (TARS) monitors the low-
altitude approaches to the United States. With 8 aerostat sites--6 
along the Southwest Border, one in the Florida Keys, and one in Puerto 
Rico--the TARS elevated sensor mitigates the effect of the curvature of 
the earth and terrain-masking limitations associated with ground-based 
radars, enabling maximum long-range radar detection capabilities. In 
fiscal year 2014 through fiscal year 2016, TARS was responsible for 
detecting 86 percent of all suspected air smuggling flights approaching 
the Southwest Border from Mexico. The budget provides support for the 
Tethered Aerostat Radar System program. The $41.2 million requested 
will provide for the annual system operations, system upkeep, 
maintenance and supply of Government personnel, and real property needs 
such as site and facility leases and expenses, for the full program. 
This funding will sustain the steady-state operations of the system 
while also retiring major threats from technical and program risks to 
system operations and health stemming from aging technology, 
diminishing manufacturing sources, and emerging regulatory 
requirements.
    A vital component of DHS's domain awareness capabilities, AMO's Air 
and Marine Operations Center (AMOC) integrates surveillance 
capabilities and coordinates a response to threats to National security 
with other CBP operational components, including USBP, Federal, and 
international partners \3\ to detect, identify, track, and support 
interdiction of suspect aviation and maritime activity in the 
approaches to U.S. borders, at the borders, and within the interior of 
the United States. Coordinating with extensive law enforcement and 
intelligence databases and communication networks, AMOC's command-and-
control operational system, the Air and Marine Operations Surveillance 
System (AMOSS), provides a single display capable of processing up to 
700 individual sensor feeds and tracking over 50,000 individual targets 
simultaneously. The eight TARS sites represent approximately 2 percent 
of the total integrated radars in AMOSS, yet were able to account for 
detecting 53 percent of all suspect target detections.
---------------------------------------------------------------------------
    \3\ AMOC partners include the Federal Aviation Administration 
(FAA), the Department of Defense (including the North American 
Aerospace Defense Command (NORAD)), and the governments of Mexico, 
Canada, and the Bahamas.
---------------------------------------------------------------------------
    CBP is also pursuing improved border surveillance capabilities in 
the air domain. AMO is performing a formal Analysis of Alternatives 
(AOA) to review and assess multiple opportunities for extending a TARS-
like surveillance capability beyond the next decade. A field test of 
promising key technologies is planned to take place in fiscal year 
2018. In addition, AMO is participating in an interagency effort to 
assess the feasibility of moving its current air surveillance radar 
capabilities out of the L-Band spectrum so that the L-Band spectrum can 
be auctioned off for private sector use. If the move proves feasible, 
the proceeds of the auction would be used to transition to the new air 
surveillance capability.
    As we continue to deploy border surveillance technology, 
particularly along the Southwest Border, these investments in fixed and 
mobile technology, as well as enhancements of domain awareness 
capabilities provided by the AMOC allow CBP the flexibility to shift 
more agents from detection duties to interdiction of illegal activities 
across our borders.
               border technology requirements development
    CBP is committed to effective and efficient resource allocation and 
works closely with other elements of DHS headquarters and fellow 
department components to ensure strategy-led, operationally-informed 
requirements development. This process enables DHS to effectively and 
efficiently execute acquisition strategies and budgets that address the 
broad range of complex border threats and challenges, including illegal 
migration, smuggling of illegal drugs, human and arms trafficking, and 
the threat of terrorist exploitation of border vulnerabilities.
    For example, CBP works closely with the DHS Science & Technology 
(S&T) Directorate to identify and develop technology to improve our 
surveillance and detection capabilities along our land and maritime 
borders. This includes investments in tunnel detection and tunnel 
activity monitoring technology; tactical communication upgrades, sUAS; 
low-flying aircraft detection and tracking systems, land and maritime 
data integration/data fusion capabilities, and border surveillance 
tools tailored to the Southwest and Northern Border, including 
unattended ground sensors/tripwires, upgrades for mobile surveillance 
systems, slash camera poles, and wide-area surveillance.
    In addition to collaboration with our DHS partners, as part of 
CBP's efforts to seek innovative ways to acquire and use technology, 
CBP formed a partnership with DOD to identify and reuse excess DOD 
technology. To date, CBP has acquired several types of technology, 
including thermal imaging equipment, night vision equipment, and 
tactical aerostat systems, which increase CBP's situational awareness 
and operational flexibility in responding to border threats. We will 
continue to pursue additional opportunities to leverage DOD excess 
equipment. We will do this in a sustainable way by considering the full 
life-cycle costs of the DOD equipment we are considering before 
acquiring it.
                               conclusion
    Technology is a primary driver of all land, maritime, and air 
domain awareness. CBP's risk-based deployment of technology allows us 
to achieve our strategic and operational enforcement objectives at our 
POEs, along U.S. borders, and in the air and maritime approaches. The 
information obtained from NII, RPMs, fixed and mobile surveillance 
systems, ground sensors, imaging systems, and other advanced aerial and 
maritime technologies enhances domain awareness, informs situational 
awareness, and better enables CBP to monitor, detect, identify, and 
appropriately respond to unauthorized crossings and contraband 
smuggling.

    Ms. McSally. Thank you.
    The Chair now recognizes Mr. Luck for 5 minutes to testify.
    Can you make sure your microphone is on?

 STATEMENT OF SCOTT A. LUCK, ACTING DEPUTY CHIEF, U.S. BORDER 
          PATROL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Luck. Chairwoman McSally, Ranking Member Vela, Mr. 
Correa, and Members of the subcommittee, thank you for the 
opportunity to testify today on behalf of the men and woman of 
the U.S. Border Patrol to discuss our use of technology to 
secure the border.
    Our Border Patrol operations along the Southwest Border are 
continuously challenged by evolving tactics and transnational 
criminal organizations and individuals.
    The Border Patrol uses sophisticated technology, a critical 
element in our layered border strategy to enhance our 
situational awareness and to detect changes in threat levels 
and criminal flows across the border.
    Thanks to the support of this subcommittee, CBP continues 
to deploy capable technology resources to increase our ability 
to detect illegal activity along the Southwest Border and our 
ability to more efficiently, effectively, and safely respond, 
as appropriate, to potential threats.
    With enhanced detection and surveillance capabilities, 
Border Patrol agents can improve their situational awareness 
remotely, direct our agents to the best interdiction location, 
and warn of any other additional danger otherwise unknown along 
the way.
    As a result, these investments increase the Border Patrol's 
visibility on the border, our operational capabilities, and the 
safety of our front-line law enforcement personnel.
    As many on this subcommittee know, the terrain along the 
border between the United States and Mexico is extremely 
diverse, consisting of deserts, mountains, and urban areas.
    Tailored to address an area's risk and environmental 
challenges, CBP deploys a combination of fixed, mobile, and 
relocatable technology assets with short-, medium-, and long-
range persistence surveillance capabilities to maintain 
situational awareness of the varying border environments.
    For example, integrated fixed towers deployed along the 
border in Arizona provide a long-range persistence 
surveillance. These tower systems automatically detect and 
track items of interest and provide centralized operators with 
video and geospatial location of suspected items of interest 
for identification and appropriate action.
    Remote video surveillance systems, RVSS, are another fixed 
technology asset used by the U.S. Border Patrol to provide 
persistent surveillance in select areas along the Southwest and 
Northern Borders.
    These systems, which use cameras, radio, and microwave 
transmitters to send video to a control room, enable the Border 
Patrol to remotely detect, identify, classify, and track 
targets effectively.
    Mobile technology mounted on vehicles or carried by agents, 
is used in conjunction with fixed assets and provides the 
Border Patrol flexibility and agility to adapt to the changing 
border conditions and threats.
    Tactical aerostats and relocatable towers acquired as part 
of the Department of Defense reuse program, have also proven to 
be a vital asset in increasing CBP's situational awareness and 
our ability to detect, identify, and track illegal cross-border 
activity.
    Mobile surveillance technology systems enable Border Patrol 
agents to position the technology where it is needed at a 
specific moment, extend our observational capabilities, and 
increase the accuracy and speed of our response.
    In addition to the use of surveillance technology, 
collaboration and information sharing with our law enforcement 
partners is a key component of building situational awareness 
and response capabilities along our Southwest Border.
    We work closely with our CBP partners, especially Air and 
Marine Operations, as well as multiple DHS, Federal, 
international, State, Tribal, and local law enforcement 
agencies.
    Technology is critical to the Border Patrol's border 
security operations. A tailored blend of fixed, mobile, and 
portable surveillance systems that complement one another and 
work in conjunction with other elements of our operations, 
including intelligence, partnerships, and tactical 
infrastructure, increases the Border Patrol's effectiveness in 
addressing high-risk and seasonal or periodic traffic patterns 
and enables rapid response strategies to maximize limited 
manpower.
    Chairwoman McSally, Ranking Member Vela, Mr. Correa, and 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear before you today.
    In closing, I would like to thank the men and women of the 
United States Border Patrol for their hard work and dedication 
to duty, who unselfishly protect our Nation 24 hours a day, 365 
days a year. I look forward to answering your questions.
    Ms. McSally. Thank you, Mr. Luck.
    I think I pronounced your name wrong--Mr. Michelini, not 
Michelini?
    Mr. Michelini. Michelini. That is correct.
    Ms. McSally. OK, so it is Michelini? OK. The Chair now 
recognizes Mr. Michelini for 5 minutes.

STATEMENT OF DENNIS J. MICHELINI, ACTING EXECUTIVE DIRECTOR OF 
OPERATIONS, AIR AND MARINE OPERATIONS, U.S. CUSTOMS AND BORDER 
        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Michelini. Good morning, Chairwoman McSally, Ranking 
Member Vela, and Mr. Correa and distinguished Members of the 
subcommittee. It is an honor to appear before you today to 
discuss the technology used by CBP Air and Marine Operations, 
AMO, in securing our Nation's borders.
    A critical component of CBP's border security mission, AMO 
secures the United States from transnational threats, including 
terrorism, weapons and drug smuggling, and other illicit 
activities throughout our four core competencies: Interdiction, 
investigations, domain awareness, and contingencies in National 
taskings.
    Throughout my 22 years in law enforcement, first as a 
Border Patrol agent and then as an air interdiction pilot, I 
have personally witnessed a significant increase in the 
development and deployment of technology to aid in the security 
of our borders, the result of which has, without doubt, 
improved our efficiency and effectiveness in fulfilling our law 
enforcement mission.
    Throughout the use of coordinated and integrated 
surveillance capabilities, including aviation, marine-tethered 
aerostats and integrated ground-based sensors, AMO detects, 
interdicts, and prevents the unlawful movement of people, 
illegal drugs, and other contraband toward or across the 
borders of the United States.
    Our technology assets provide multi-domain awareness for 
our partners across CBP and the Department of Homeland 
Security, as well as critical aerial and maritime surveillance 
interdiction and operational assistance to our ground 
personnel.
    AMO's aerial surveillance capabilities are enhanced through 
recent investments and deployments of fixed-wing, rotary, and 
unmanned aircraft. These assets are equipped with a range of 
advanced sensor systems tailored to specific operational 
environments and provide critical detection interdiction 
capability.
    Sophisticated sensors and high-endurance aerial 
capabilities greatly increase AMO's effectiveness in countering 
illicit cross-border activity.
    AMO operates the Air and Marine Operations Center, AMOC, 
which is a state-of-the-art law enforcement domain awareness 
center. AMOC uses advanced surveillance systems and 
intelligence databases to detect threats to homeland and 
coordinate their interdiction.
    AMO also combats airborne and maritime smuggling with an 
integrated long-range radar architecture comprised of ground-
based radars and elevated radars deployed on tethered 
aerostats.
    Across our entire program, AMO contributed to more than 
4,300 arrests, 55,000 apprehensions, and the interdiction of 
nearly 200,000 pounds of cocaine in fiscal year 2016. AMO lends 
its capabilities to a variety of Federal partners, including 
the U.S. Coast Guard and the United States Navy, by conducting 
counter narcotic operations in the southeast coastal and source 
and transit zones.
    We are the leading provider of airborne detection and 
monitoring to the Joint Interagency Task Force South. We also 
provide direct assistance to partner nations with the shared 
interest in border security, most notably Mexico and Canada.
    Moving forward, we will continue to work with our CBP and 
other partners to enhance our detection, investigation, and 
interdiction capabilities, to address emerging threats and to 
protect America's security interests along the Nation's border 
in source and transit zones and our own customs waters and 
within the Nation's interior.
    Chairwoman McSally, Ranking Member Vela, Mr. Correa, and 
distinguished Members of the subcommittee, thank you for this 
opportunity to testify today. I look forward to answering your 
questions.
    Ms. McSally. Thank you.
    The Chair now recognizes Ms. Gambler for 5 minutes to 
testify.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairman McSally, Ranking Member 
Vela, Ranking Member Correa, Members of the subcommittee. I 
appreciate the opportunity to testify at today's hearing to 
discuss GAO's work on DHS efforts to acquire and deploy various 
technologies along U.S. borders.
    DHS has employed a variety of assets in its efforts to 
secure the Southwest Border, including various land-based 
surveillance technologies. GAO has reported on DHS's management 
and oversight of these surveillance technologies under the 
former Secure Border Initiative and the Department's more 
recent plans.
    My remarks today will summarize some of GAO's past reports, 
as well as some preliminary observations from our on-going work 
for this subcommittee on CBP's various surveillance 
technologies.
    More specifically CBP has made progress in deploying 
technologies along the Southwest Border. This includes fixed 
and mobile surveillance systems, agent portable devices, and 
ground sensors. These technologies have aided CBP's border 
security efforts.
    As of July 2017, CBP has completed deployment of selected 
technologies to areas in Arizona, Texas, and California. For 
example, CBP has reported deploying all planned Remote Video 
Surveillance Systems, or RVSS, and Mobile Surveillance 
Capabilities systems, or MSCs, to Arizona.
    CBP has also reported deploying 15 of 53 planned Integrated 
Fixed Towers, or IFTs, to Arizona. CBP has deployed all planned 
MSC systems to Texas and California.
    Although CBP has made this progress in technology 
deployments, we have also reported that CBP could do more to 
strengthen its management of technology programs and better 
assess the contributions of surveillance technologies to border 
security efforts.
    For example, CBP has previously experienced delays in some 
of its technology programs. We have also previously reviewed 
CBP's schedules and life-cycle cost estimates for the IFT, 
RVSS, and MSC programs. We compared these schedules and 
estimates to best practices.
    Overall the schedules and estimates for the programs 
reflected some but not all best practices. We found that CBP 
could take further action to better ensure the reliability of 
its schedules and cost estimates by more fully applying those 
best practices.
    CBP has taken steps toward addressing our recommendations 
in these areas, such as providing us with updated schedules for 
some of the technology programs which have showed notable 
improvements in quality. We are continuing to review CBP's 
schedules and estimates as part of our on-going work for this 
subcommittee.
    Further, CBP has identified the mission benefits of 
surveillance technologies, such as improved situational 
awareness and agent safety. CBP has also begun requiring Border 
Patrol to record data within its database on whether or not an 
asset, such as a camera, assisted in an apprehension or 
seizure.
    These are positive steps toward helping CBP assess the 
contributions of its surveillance technologies to border 
security. However, CBP needs to develop and implement 
performance measures and analyze data it is now collecting to 
be able to fully assess the contributions of its technologies 
to border security.
    In closing, we are continuing to examine CBP's use of 
technologies for border security as part of our on-going work. 
We will also continue to follow up on actions taken by CBP in 
response to our recommendations for improving management and 
measurement of the agency's land-based surveillance 
technologies.
    This concludes my oral statement, and I am happy to answer 
any questions Members have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                             July 25, 2017
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee: I am pleased to be here today to discuss the Department 
of Homeland Security's (DHS) efforts to acquire and deploy land-based 
surveillance technology and the extent that DHS measures the 
effectiveness of these deployed technologies to secure U.S. borders. 
The Southwest Border continues to be vulnerable to cross-border illegal 
activity, and DHS reported apprehending about 409,000 illegal entrants 
and making about 14,000 seizures of drugs along the Southwest Border in 
fiscal year 2016. Within DHS, U.S. Customs and Border Protection's 
(CBP) U.S. Border Patrol (Border Patrol) is the Federal agency with 
primary responsibility for securing the National borders between U.S. 
ports of entry.\1\ CBP has divided geographic responsibility for the 
Southwest Border among 9 Border Patrol sectors.\2\
---------------------------------------------------------------------------
    \1\ Ports of entry are facilities that provide for the controlled 
entry into or departure from the United States. Specifically, a port of 
entry is any officially designated location (seaport, airport, or land 
border location) where DHS officers or employees are assigned to clear 
passengers and merchandise, collect duties, and enforce customs laws, 
and where DHS officers inspect persons entering or applying for 
admission into, or departing the United States pursuant to U.S. 
immigration law.
    \2\ Each of the 9 Southwest Border Patrol sectors (Big Bend, Del 
Rio, El Centro, El Paso, Laredo, Rio Grande Valley, San Diego, Tucson, 
and Yuma) has a headquarters with management personnel and these 
sectors are further divided geographically into varying numbers of 
stations, with agents assigned to patrol defined geographic areas.
---------------------------------------------------------------------------
    DHS has deployed a variety of land-based surveillance technologies, 
which Border Patrol uses to assist its efforts to secure the border and 
to apprehend individuals attempting to cross the border illegally. In 
November 2005, DHS launched the Secure Border Initiative (SBI), which 
was responsible for developing a comprehensive border protection system 
using technology, known as the Secure Border Initiative Network 
(SBInet). Under the SBInet program CBP acquired 15 fixed-tower systems 
at a cost of nearly $1 billion, which are deployed along 53 miles of 
Arizona's 387-mile border with Mexico. In January 2011, in response to 
internal and external assessments that identified concerns regarding 
the performance, cost, and schedule for implementing the systems, the 
Secretary of Homeland Security announced the cancellation of further 
procurements of SBInet surveillance systems, though CBP continued 
operating the existing SBInet systems. That same month, CBP introduced 
the Arizona Border Surveillance Technology Plan (ATP). The ATP includes 
a mix of radars, sensors, and cameras to help provide security for the 
Arizona border. In June 2014, CBP developed a separate plan that 
incorporates the ATP, and includes the rest of the Southwest Border--
the Southwest Border Technology Plan. Under the Southwest Border 
Technology Plan, CBP has plans to extend land-based surveillance 
technology deployments to the remainder of the Southwest Border, 
beginning with selected areas in Texas and California.
    Over the years, we have reported on the progress DHS has made and 
challenges it faces in implementing its border security efforts. My 
statement discusses: (1) The status of CBP efforts to deploy land-based 
surveillance technology and (2) CBP's efforts to measure the 
effectiveness of these technologies.
    This statement is based on reports and testimonies we issued from 
2011 through 2017 that examined DHS efforts to secure the U.S. 
border.\3\ It also includes selected updates on DHS's efforts to 
address our previous recommendations related to the ATP and our on-
going work for this subcommittee on border surveillance technologies. 
Our reports and testimonies incorporated information we obtained and 
analyzed from officials from various DHS components. More detailed 
information about our scopes and methodologies, including which DHS 
components we interviewed for the work, can be found in our published 
reports and testimonies.
---------------------------------------------------------------------------
    \3\ These include: GAO, Arizona Border Surveillance Technology 
Plan: Additional Actions Needed to Strengthen Management and Assess 
Effectiveness, GAO-14-368 (Washington, DC: Mar. 3, 2014), Homeland 
Security Acquisitions: Major Program Assessments Reveal Actions Needed 
to Improve Accountability, GAO-15-171SP (Washington, DC: Apr. 22, 
2015), Border Security: DHS Surveillance Technology, Unmanned Aerial 
Systems and Other Assets, GAO-16-671T (Washington, DC: May 24, 2016), 
and Homeland Security Acquisitions: Earlier Requirements Definition and 
Clear Documentation of Key Decisions Could Facilitate On-going 
Progress, GAO-17-346SP (Washington, DC: Apr. 6, 2017). See Related GAO 
Products page for additional reports.
---------------------------------------------------------------------------
    For the updates on our ATP work and our on-going work, we reviewed 
documents from DHS on actions it has taken to address findings and 
recommendations made in the prior reports on which this statement is 
based. For updates on the status of selected land-based surveillance 
technology programs, we reviewed CBP and DHS documents and examined 
cost and schedule data for each technology program. We also interviewed 
program managers responsible for the overall activities of these 
programs, including actions to design, acquire, deploy, and test the 
technology systems, and manage Government and contractor efforts. As 
part of our on-going work related to the deployment of land-based 
technology along the Southwest Border, we conducted site visits to 
Arizona in November 2016 and April 2017 and to south Texas in March 
2017. During these site visits we observed border surveillance 
operations and interviewed CBP officials who operate and utilize these 
technologies.
    All of our work was conducted in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
   cbp has made progress deploying surveillance technology along the 
   southwest border, but could take additional actions to strengthen 
                       management of its programs
CBP Has Made Progress Toward Completing Milestones for Technology 
        Deployment
    Since 2014, we have reported multiple times on the progress CBP has 
made deploying technologies under the ATP. We reported in May 2016 that 
CBP had initiated or completed deployment of technology to Arizona for 
6 programs under the ATP.\4\ In addition to deploying technologies 
under the ATP, CBP's 2014 Southwest Border Technology Plan extended 
technology deployments to the remainder of the Southwest Border, 
beginning with selected areas in Texas and California. As of July 2017, 
CBP completed deployment of select technologies to sectors in Arizona, 
Texas, and California. For example, in our April 2017 assessment of 
DHS's major acquisitions programs, we reported that CBP completed 
deployments of 7 Integrated Fixed Tower (IFT) systems to the Nogales 
Border Patrol station within the Tucson sector in Arizona, and was 
working to deploy the remaining 46 towers to other sectors in 
Arizona.\5\ As of July 2017, CBP reported deploying an additional 8 IFT 
systems, for a total of 15 of 53 planned towers. CBP has also made 
changes to the IFT program. Specifically, rather than expanding IFT 
capabilities to the Wellton Border Patrol station within the Yuma 
sector in Arizona as originally planned, CBP now plans to replace 15 
existing SBInet fixed-tower systems with IFT systems.\6\ CBP also 
reported that it had completed Remote Video Surveillance System (RVSS) 
and Mobile Surveillance Capability (MSC) deployments to Arizona as 
planned under the ATP, and deployed 32 MSC systems to Texas and 
California.\7\ Additionally, CBP completed contract negotiations with 
the RVSS program for follow-on contract option periods to deploy RVSS 
to two stations in the Rio Grande Valley sector in Texas. The 
deployment status of the IFT, RVSS, and MSC technologies is shown below 
in table 1. We will plan to report on the deployment status of 
Southwest Border surveillance technology, among other topics, in a 
forthcoming report.
---------------------------------------------------------------------------
    \4\ The ATP's 7 acquisition programs include fixed and mobile 
surveillance systems, agent portable devices, and ground sensors. The 
Mobile Video Surveillance System (MVSS) units to be procured under the 
ATP were redirected to Texas due to changing operational priorities. 
Its three highest-cost programs, which represent 97 percent of the 
ATP's estimated cost, are the Integrated Fixed Tower (IFT), Remote 
Video Surveillance System (RVSS), and Mobile Surveillance Capability 
(MSC).
    \5\ An IFT system consists of towers, among other things, ground 
surveillance radars and surveillance cameras mounted on fixed (that is, 
stationary) towers.
    \6\ These 15 SBInet surveillance systems were deployed to the 
Tucson and Ajo stations within the Tucson sector in Arizona. Border 
Patrol began using SBInet systems at the Tucson station in February 
2010 and at the Ajo station in August 2010.
    \7\ An RVSS consists of day and night cameras, laser designator, 
mounted on monopoles, lattice towers, and buildings and differs from 
the IFT in, among other things, that the RVSS is an expansion of a 
legacy system and does not include radars, while the IFT is a new 
system with radars. An MSC is a stand-alone, truck-mounted suite of 
radar and cameras mounted 25 feet high on a truck that provides a 
display within the cab of the truck.

                              TABLE 1.--DEPLOYMENT STATUS OF SELECT TECHNOLOGIES ALONG THE SOUTHWEST BORDER AS OF JULY 2017
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           Deployment
       Technology Program               Location         Under  Contract   ------------------------------------------
                                                                                  Started             Completed
--------------------------------------------------------------------------------------------------------------------------------------------------------
Integrated Fixed Tower (IFT)....  Arizona............  X..................  X..................  ...................  Customs and Border Protection
                                                                                                                       (CBP) completed deployments of
                                                                                                                       IFT systems to the Nogales and
                                                                                                                       Douglas Border Patrol stations in
                                                                                                                       Arizona. Four additional Border
                                                                                                                       Patrol stations are scheduled--
                                                                                                                       Sonoita; Casa Grande; Ajo; and
                                                                                                                       Tucson. In addition, in January
                                                                                                                       2015, Border Patrol requested
                                                                                                                       that CBP replace the 15 existing
                                                                                                                       Secure Border Initiative Network
                                                                                                                       (SBInet, ``Block 1'') fixed-tower
                                                                                                                       systems in the Tucson sector
                                                                                                                       (Border Patrol began using these
                                                                                                                       systems at the Tucson station in
                                                                                                                       February 2010 and at the Ajo
                                                                                                                       station in August 2010) with new
                                                                                                                       IFT systems, rather than
                                                                                                                       expanding IFT capabilities and
                                                                                                                       deploying these systems to a new
                                                                                                                       area of responsibility in Yuma,
                                                                                                                       Arizona at the Wellton station,
                                                                                                                       as originally planned.
Remote Video Surveillance System  Arizona............  X..................  ...................  X..................  In December 2016, CBP completed
 (RVSS).                                                                                                               deployments of all new and
                                                                                                                       upgraded RVSS systems that it
                                                                                                                       planned to deploy in Arizona.
                                  Texas-Rio Grande     X..................  ...................  ...................  CBP officials stated they
                                   City and McAllen    (under the Arizona                                              completed a site laydown study
                                   stations within      contract).                                                     for RVSS sites, and according to
                                   the Rio Grande                                                                      CBP, the program has been working
                                   Valley sector.                                                                      with Johns Hopkins University
                                                                                                                       Applied Physics Laboratory to
                                                                                                                       examine video field of view. CBP
                                                                                                                       signed off on-site laydowns in
                                                                                                                       April 2016. CBP also stated that
                                                                                                                       the current contract includes an
                                                                                                                       option to expand RVSS into the
                                                                                                                       Rio Grande Valley sector and that
                                                                                                                       current program funding allows
                                                                                                                       for RVSS to be deployed in the
                                                                                                                       McAllen and Rio Grande City
                                                                                                                       Border Patrol stations.
                                  Texas and other      ...................  ...................  ...................  CBP plans to deploy RVSS to the
                                   areas.                                                                              remaining planned sites within
                                                                                                                       and outside of Texas. CBP
                                                                                                                       officials stated that this would
                                                                                                                       be a new procurement action;
                                                                                                                       therefore, CBP plans to release a
                                                                                                                       new Request for Proposal and has
                                                                                                                       initiated the development of the
                                                                                                                       acquisition strategy for these
                                                                                                                       remaining areas of responsibility
                                                                                                                       within and outside of Texas.
Mobile Surveillance PCapability   Arizona, Texas and   X..................  ...................  X..................  CBP reported that as of December
 (MSC).                            California.                                                                         2016 it had completed deployments
                                                                                                                       of all MSC systems to Arizona,
                                                                                                                       Texas (Big Bend, Del Rio, and El
                                                                                                                       Paso sectors), and California,
                                                                                                                       (San Diego and El Centro
                                                                                                                       sectors).
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\Source: GAO analysis of CBP data. GAO-17-765T.

CBP Has Made Progress in Implementing GAO's Prior Recommendations, but 
        Could Take Additional Actions to Strengthen Management of Its 
        Programs
    In March 2014, we assessed CBP's efforts to develop and implement 
the ATP.\8\ Specifically, we recommended that CBP, among other things: 
(1) Apply scheduling best practices; (2) develop an integrated 
schedule; and (3) verify life-cycle cost estimates. DHS concurred with 
some of our recommendations and has taken actions to address some of 
them, which we discuss below.
---------------------------------------------------------------------------
    \8\ GAO-14-368.
---------------------------------------------------------------------------
    Program Schedules.--In March 2014, we found that CBP had a schedule 
for deployment for each of the ATP's 7 programs, and that 4 of the 
programs would not meet their originally-planned completion dates. 
Specifically, we found that the 3 highest-cost programs (IFT, RVSS, and 
MSC), had experienced delays relative to their baseline schedules, as 
of March 2013.\9\ We also reported that CBP had at least partially met 
the four characteristics of reliable schedules for the IFT and RVSS 
schedules and partially or minimally met the four characteristics for 
the MSC schedule. Scheduling best practices are summarized into four 
characteristics of reliable schedules--comprehensive, well-constructed, 
credible, and controlled (i.e., schedules are periodically updated and 
progress is monitored).\10\ We assessed CBP's schedules as of March 
2013 for the three highest-cost programs and reported in March 2014 
that schedules for two of the programs at least partially met each 
characteristic (i.e., satisfied about half of the criterion), and the 
schedule for the other program at least minimally met each 
characteristic (i.e., satisfied a small portion of the criterion).\11\ 
For example, the schedule for the IFT program partially met the 
characteristic of being credible in that CBP had performed a schedule 
risk analysis for the program, but the risk analysis did not include 
the risks most likely to delay the program or how much contingency 
reserve was needed. For the MSC program, the schedule minimally met the 
characteristic of being controlled in that it did not have valid 
baseline dates for activities or milestones by which CBP could track 
progress. We recommended that CBP ensure that scheduling best practices 
are applied to the IFT, RVSS, and MSC program schedules. DHS concurred 
with the recommendation and stated that CBP planned to ensure that 
scheduling best practices would be applied, as outlined in our schedule 
assessment guide, when updating the three programs' schedules.
---------------------------------------------------------------------------
    \9\ The baseline schedule is to represent the original 
configuration of the program plan and to signify the consensus of all 
stakeholders regarding the required sequence of events, resource 
assignments, and acceptable dates for key deliverables. The current 
schedule is to represent the actual plan to date.
    \10\ GAO, GAO Schedule Assessment Guide: Best Practices for Project 
Schedules, GAO-16-89G (Washington, DC: Dec. 2015). We developed this 
guide through a compilation of best practices that Federal agencies and 
industry use. According to this guide, for a schedule to be 
comprehensive, among other things, the schedule should: (1) Capture all 
activities, as defined in the work breakdown structure; (2) reflect 
what resources are needed to do the work; and (3) establish the 
duration of all activities and have specific start and end dates. To be 
well constructed, among other things, a schedule should have all of its 
activities sequenced in the order that they are to be implemented with 
the most straightforward logic possible. To be credible, the schedule 
should reflect the order of events necessary to achieve aggregated 
products or outcomes, and activities in varying levels of the schedule 
map to one another. Moreover, a schedule risk analysis should be 
conducted to predict a level of confidence in meeting the program's 
completion date. For a schedule to be controlled, the schedule should 
be updated periodically using actual progress and logic to 
realistically forecast dates for program activities, and a baseline 
schedule should be maintained to measure, monitor, and report the 
program's progress.
    \11\ GAO-14-368.
---------------------------------------------------------------------------
    In response to our March 2014 recommendation regarding applying 
scheduling best practices, CBP provided us with updated program 
schedules for the IFT, RVSS, and MSC programs. Based on our assessment 
of updated program schedules for the IFT, RVSS, and MSC that CBP had 
completed as of January 2017, CBP has made significant improvements in 
the quality of the programs' schedules, but the programs' schedules had 
not met all characteristics of a reliable schedule. For example, CBP 
has improved the quality of its products for analyzing and quantifying 
risk to the programs' schedules; however, CBP could improve the 
documentation of these analyses and the prioritization of the programs' 
risks. While CBP has taken positive steps we continue to believe that 
by ensuring that all scheduling best practices are applied, CBP could 
help ensure the reliability of its programs' schedules and better 
position itself to identify and address any potential delays in its 
programs' commitment dates.
    Integrated Master Schedule.--In March 2014, we also found that CBP 
had not developed an Integrated Master Schedule for the ATP in 
accordance with best practices. Rather, CBP had used separate schedules 
for each program to manage implementation of the ATP, as CBP officials 
stated that the ATP contained individual acquisition programs rather 
than integrated programs. However, collectively these programs are 
intended to provide CBP with a combination of surveillance capabilities 
to be used along the Arizona border with Mexico, and resources are 
shared among the programs.\12\ We recommended in March 2014 that CBP 
develop an Integrated Master Schedule for the ATP. CBP did not concur 
with this recommendation and maintained that an Integrated Master 
Schedule for the ATP in one file undermines the DHS-approved 
implementation strategy for the individual programs making up the ATP, 
and that the implementation of this recommendation would essentially 
create a large, aggregated program, and effectively create an 
aggregated ``system of systems.'' DHS further stated at the time that a 
key element of its plan has been the disaggregation of technology 
procurements. As we reported in March 2014, this recommendation was not 
intended to imply that DHS needed to re-aggregate the ATP's 7 programs 
into a ``system of systems'' or change its procurement strategy in any 
form. The intent of the recommendation was for DHS to insert the 
individual schedules for each of the ATP's programs into a single 
electronic Integrated Master Schedule file in order to identify any 
resource allocation issues among the programs' schedules. We continue 
to believe that developing and maintaining an Integrated Master 
Schedule for planned technologies could allow CBP insight into current 
or programmed allocation of resources for all programs as opposed to 
attempting to resolve any resource constraints for each program 
individually.
---------------------------------------------------------------------------
    \12\ According to scheduling best practices, an Integrated Master 
Schedule is a critical management tool for complex systems that involve 
a number of different projects, such as the ATP, to allow managers to 
monitor all work activities, how long activities will take, and how the 
activities are related to one another. We concluded in March 2014 that 
developing and maintaining an Integrated Master Schedule for the ATP 
could help provide CBP a comprehensive view of the ATP and help CBP 
better understand how schedule changes in each individual program could 
affect implementation of the overall plan.
---------------------------------------------------------------------------
    Life-cycle Cost Estimates.--In March 2014, we also reported that 
the life-cycle cost estimates for the technology programs under the ATP 
reflected some, but not all, best practices. Cost-estimating best 
practices are summarized into four characteristics--well-documented, 
comprehensive, accurate, and credible. Our analysis of CBP's estimate 
for the ATP and estimates completed at the time of our March 2014 
review for the two highest-cost programs--the IFT and RVSS programs--
showed that these estimates at least partially met three of these 
characteristics: Well-documented, comprehensive, and accurate. In terms 
of being credible, these estimates had not been verified with 
independent cost estimates in accordance with best practices.\13\ We 
concluded that verifying life-cycle cost estimates with independent 
estimates in accordance with cost-estimating best practices could help 
better ensure the reliability of the cost estimates, and we recommended 
that CBP verify the life-cycle cost estimates for the IFT and RVSS 
programs with independent cost estimates and reconcile any differences. 
DHS concurred with this recommendation, but stated then that it did not 
believe that there would be a benefit in expending funds to obtain 
independent cost estimates and that if the costs realized to date 
continued to hold, there may be no requirement or value added in 
conducting full program updates with independent cost estimates.\14\
---------------------------------------------------------------------------
    \13\ GAO, GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs, GAO-09-3SP 
(Washington, DC: Mar. 2, 2009).
    \14\ An independent cost estimate provides an independent view of 
expected program costs that tests the program office's estimate for 
reasonableness. Independent cost estimates frequently use different 
methods and are less burdened with organizational bias, helping to 
provide decision makers with insight into a program's potential costs.
---------------------------------------------------------------------------
    We recognize the need to balance the cost and time to verify the 
life-cycle cost estimates with the benefits to be gained from 
verification with independent cost estimates. As part of our updates on 
CBP's efforts to implement our 2014 recommendations, CBP officials told 
us that in fiscal year 2016, DHS's Cost Analysis Division would begin 
piloting DHS's independent cost estimate capability on the RVSS 
program. According to CBP officials, this pilot is an opportunity to 
assist DHS in developing its independent cost estimate capability. CBP 
selected the RVSS program for the pilot because the program was at a 
point in its planning and execution process where it can benefit most 
from having an independent cost estimate performed, as these 
technologies are being deployed along the Southwest Border beyond 
Arizona. According to CBP officials, DHS's Cost and Analysis Division 
(CAD) completed its independent cost estimate for the RVSS program in 
August 2016, and that in February 2017 CBP had completed its efforts to 
verify the RVSS program cost estimate with CAD's independent cost 
estimate, which is part of the CAD pilot. However, as of July 2017, CBP 
has not yet provided us with the final reconciliation of the 
independent cost estimate and the RVSS program cost estimate, as we 
recommended in 2014. CBP officials have not detailed similar plans for 
the IFT. We continue to believe that independently verifying the life-
cycle cost estimates for the IFT and RVSS programs and reconciling any 
differences, consistent with best practices, could help CBP better 
ensure the reliability of the estimates.
      cbp has made progress assessing performance of surveillance 
technologies, but has not fully applied performance metrics or assessed 
                 the contributions of its technologies
    We reported in March 2014 that CBP had identified mission benefits 
of its surveillance technologies to be deployed along the Southwest 
Border, such as improved situational awareness and agent safety. 
However, the agency had not developed key attributes for performance 
metrics for all surveillance technologies to be deployed, as we 
recommended in November 2011.\15\ Further, we also reported in March 
2014 that CBP did not capture complete data on the contributions of 
these technologies, which in combination with other relevant 
performance metrics or indicators, could be used to better determine 
the impact of CBP's surveillance technologies on CBP's border security 
efforts and inform resource allocation decisions. We found that CBP had 
a field within its Enforcement Integrated Database for data on whether 
technological assets, such as SBInet surveillance systems, and non-
technological assets, such as canine teams, assisted or contributed to 
the apprehension of illegal entrants and seizure of drugs and other 
contraband; however, according to CBP officials, Border Patrol agents 
were not required to record these data. This limited CBP's ability to 
collect, track, and analyze available data on asset assists to help 
monitor the contribution of surveillance technologies, including its 
SBInet system, to Border Patrol apprehensions and seizures and inform 
resource allocation decisions. We recommended that CBP require data on 
asset assists to be recorded and tracked within its database, and once 
these data were required to be recorded and tracked, that it analyze 
available data on apprehensions and technological assists--in 
combination with other relevant performance metrics or indicators, as 
appropriate--to determine the contribution of surveillance technologies 
to CBP's border security efforts. CBP concurred with our 
recommendations and has implemented one of them. Specifically, in June 
2014, CBP issued guidance informing Border Patrol agents that the asset 
assist data field within its database was now a mandatory data field. 
Therefore, agents are required to enter any assisting surveillance 
technology or other equipment.
---------------------------------------------------------------------------
    \15\ GAO-14-368 and Arizona Border Surveillance Technology: More 
Information on Plans and Costs Is Needed before Proceeding, GAO-12-22 
(Washington, DC: Nov. 4, 2011).
---------------------------------------------------------------------------
    Further, as part of our updates on CBP's efforts to implement our 
2014 recommendations we found that in May 2015, CBP had identified a 
set of potential key attributes for performance metrics for all 
technologies to be deployed under the ATP. However, CBP officials 
stated at that time that this set of performance metrics was under 
review as the agency continued to refine the key attributes for metrics 
to assess the contributions and impacts of surveillance technology on 
its border security mission.\16\ In our April 2016 update on the 
progress made by agencies to address our findings on duplication and 
cost savings across the Federal Government, we reported that CBP had 
modified its time frame for developing baselines for each performance 
measure and that additional time would be needed to implement and apply 
key attributes for metrics.\17\ According to CBP officials, CBP 
expected these performance measure baselines to be developed by the end 
of calendar year 2015, at which time the agency planned to begin using 
the data to evaluate the individual and collective contributions of 
specific technology assets deployed under the ATP. Moreover, CBP 
planned to use the baseline data to establish a tool that explains the 
qualitative and quantitative impacts of technology and tactical 
infrastructure on situational awareness in specific areas of the border 
environment by the end of fiscal year 2016. Although CBP had initially 
reported it had expected to complete its development of baselines for 
each performance measure by the end of calendar year 2015, as of March 
2016, it was adjusting the actual completion date, pending test and 
evaluation results for recently deployed technologies to the Southwest 
Border.
---------------------------------------------------------------------------
    \16\ GAO-15-404SP.
    \17\ GAO, 2016 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-16-375SP (Washington, DC: Apr. 13, 2016).
---------------------------------------------------------------------------
    In our April 2017 update on the progress made by agencies to 
address our findings on duplication and cost savings across the Federal 
Government, we reported that CBP had provided us a case study that 
assessed technology assist data, along with other measures such as 
field-based assessments of capability gaps, to determine the 
contributions of surveillance technologies to its mission.\18\ This is 
a helpful step in developing and applying performance metrics. However, 
the case study was limited to one border location and the analysis was 
limited to select technologies. To fully implement our recommendation, 
CBP should complete its efforts to fully develop and apply key 
attributes for performance metrics for all technologies deployed and 
begin using the data to evaluate the individual and collective 
contributions of specific technologies, fully assess its progress in 
implementing planned technologies, and determine when mission benefits 
have been fully realized. Until CBP completes this effort it will not 
be well-positioned to fully assess its progress in implementing the ATP 
and determining when mission benefits have been fully realized.
---------------------------------------------------------------------------
    \18\ GAO, 2017 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-17-491SP (Washington, DC: Apr. 26, 2017).
---------------------------------------------------------------------------
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, this concludes my prepared statement. I will be happy to 
answer any questions you may have.

    Ms. McSally. Thank you, Ms. Gambler.
    I now recognize myself for 5 minutes for questions.
    Chief Luck and Director Michelini, air assets are a 
critical part of the technology integrated to build situational 
awareness for both operational level but also tactical level.
    Air has been critical in the Tucson sector, but we have 
lost a bit of our air capability in that sector, and we 
understand that we are going to lose some more in the future 
here.
    I understand there is increased activity in other sectors 
but still 50 percent of the marijuana comes from through Tucson 
sector. Especially in the hot summer we have a number of deaths 
in the desert and the air assets are very critical to getting 
to people before it is life-threatening.
    So could you share what the impact has been of decrease in 
air in the Tucson sector and any plans you have to further 
decrease it? Because this is a concern of ours. We have made 
some great gains and we feel that we are potentially going to 
shift away from that should we lose some more air.
    Mr. Luck. As far as flight hours, is that what your concern 
is?
    Ms. McSally. Flight hours and assets, yes.
    Mr. Michelini. OK. So we execute about 95,000 flight hours 
a year. That has been a pretty consistent number with us. There 
has been more movement. I mean, as--Tucson has gained a more of 
a control of the border than it was 10 years ago when the 
flight hours were much higher than they are right now.
    But in the process of actually Tucson and them getting a 
hold of--and more maintenance of their border, we have seen a 
shift in flows to south Texas. So there has been a movement of 
flight hours and funding toward the south Texas area.
    I don't necessarily foresee Arizona to drop any further 
than it is right now. I don't believe that this drop in any way 
shows a lack of interest from Air and Marine into that area.
    Tucson, as it is, is the largest branch we have.
    Ms. McSally. Yes.
    Mr. Michelini. I would probably say the agents are 
somewhere around 80 total. It has more air assets than anybody 
else, and it also flies more than anybody else. So it is still, 
it is a center cog for us in that western side of the United 
States.
    It has a large diversity of platforms. Well, first of all, 
the UAS flies out of there at our office. It has more flight 
hours than any other. We have Blackhawks that fly. We have 
Citations for air interdictions, and we have AS-350's and small 
fixed-wing aircraft. So it is a hub for us in the southwest 
region.
    Ms. McSally. Chief Luck, do you have any comments on that?
    Mr. Luck. I would just add, based on your opening 
statements, that we are testing other things, other unmanned 
aerial systems to fill a gap. We are going to test some with 
the small UAS in Arizona here coming next month. So that is a 
gap-filler, too, for needed air requirements in southern 
Arizona.
    In south Texas and we are also testing them in Swanton, 
Vermont to see what the capability is. So we have come quite a 
long ways with regard to SUAS in filling gaps in air 
requirements.
    Ms. McSally. Great, thanks. Continuing on the air 
discussion, the VADER technology has been helpful, but the 
feedback that we get when I go down and visit is oftentimes 
there are several limitations, obviously to the unmanned aerial 
systems as to when they can fly and when that information is 
available.
    We have talked several times since I have been the 
subcommittee chair about pushing forward to also have that 
capability on manned aircraft. I know you are piloting that, 
pardon the pun, but can you give an update on the process of 
getting the VADER technology on manned aircraft to provide more 
flexibility?
    Mr. Michelini. Well, first let me say that we are hoping to 
expand the UAS capabilities with VADER in Sierra Vista. We are 
very close to moving it to a 24 by 5 operation. When you 
probably visited throughout this year, it was a 16 by 5.
    So, you know, what happens with weather for that is we do 
exactly that you mentioned before. You get affected by weather 
for both take-offs and landings.
    If we move to a 5 by 24 model, we can launch and recover 
around those weather patterns. We have done a few experiments 
with that on 24 by 5, and we get massive bumps in flight-hour 
availability. So that is our initial plan going forward.
    As far as putting the VADER on a manned asset, yes, that is 
a bit out. Those are a few years out for having that available.
    Ms. McSally. So that is not being piloted right now?
    Mr. Michelini. It is being piloted, but there is nothing 
physical right now I could tell you about.
    Ms. McSally. OK. So the time line for even knowing whether 
that is a possibility you are saying is several years?
    Mr. Michelini. I don't believe it could be 7 years, but can 
I----
    Ms. McSally. Several, sorry, several not 7.
    Mr. Michelini. Oh. No, can I get you a better time line on 
that?
    Ms. McSally. Absolutely. No, this is something we have 
been, you know, interested in for a while so it would be 
helpful to understand the plan for that and the timing for 
testing and evaluation and all that, so.
    We are going to have a second round here. I am running out 
of my time. So I will now recognize Mr. Correa for 5 minutes.
    Mr. Correa. Thank you, Madam Chair.
    Ms. Gambler, a couple questions. What were the lessons from 
the failed SBInet? Has CBP fixed the management costs and 
schedule problems that led to the failure of SBInet? Could we 
see more of the same with on-going and future CBP technology 
acquisitions?
    Ms. Gambler. Sure. I will answer the middle question first 
if that is OK in terms of the----
    Mr. Correa. Take it away.
    Ms. Gambler [continuing]. The cost and schedule. We have 
seen improvements, particularly in CBP's schedules for some of 
the different land-based surveillance technologies. So that has 
been a positive step that CBP has made toward addressing our 
recommendations.
    In terms of the life-cycle cost estimate, specifically for 
the RVSS program, CBP and DHS have worked to conduct an 
independent life-cycle cost estimate and tried to reconcile 
that to the cost estimate that CBP has for the RVSS.
    We will be working with CBP to get documentation of that 
and take a look at it. So we have seen progress being made on 
both schedules and the estimates and that progress is really 
positive.
    In terms of your broader question, Ranking Member, about 
lessons learned and steps going forward, I think there are two 
key themes or lessons learned from our work looking at CBP's 
technology programs.
    The first is that it is important for CBP to make sure the 
technology programs go through the DHS acquisition management 
process fully and completely. DHS's acquisition management 
process is a robust, valid, knowledge-based process, but CBP 
hasn't always insured that technology programs have moved 
through that process consistently. So they need to apply the 
acquisition management process consistently to their technology 
programs.
    Second, and as I mentioned in my oral statement, it is 
important for CBP to put in place the metrics that we have been 
recommending for several years now so that they can really 
assess what we are getting out of our investments and 
technologies.
    So those are the two things that we see as lessons learned 
and are important things for CBP to focus on going forward.
    Mr. Correa. Thank you. Ms. Gambler, a recent GAO report 
concluded that CBP lacked the metrics necessary to show whether 
or how the existing border wall contributes to border security.
    Does it make sense to move forward with President Trump's 
multi-billion-dollar wall before CBP can show what kind of 
return the American taxpayers would get on their investment, if 
any? Is it possible, less costly, to have less intrusive border 
security measures that would be more effective?
    Ms. Gambler. Ranking Member, that question gets at two key 
findings from GAO's work on infrastructure and technology along 
the border.
    The first is we do think it is important for CBP to put 
metrics in place, both for tactical infrastructure to include 
the fencing that has been deployed, as well as technologies 
that I have mentioned.
    The other important theme from our work is, and we have 
reported on this previously as it relates to technology, is the 
need for CBP to be able to document the investments it is 
making and why it is choosing to put certain technologies or 
certain assets in certain places.
    So seeing that documentation about the types and locations 
and quantities of things that are being deployed is an 
important part of planning for these types of acquisitions.
    Mr. Correa. Just as a follow-up comment, 20 years ago in 
Los Angeles, a seizure of $2 billion of cash and drugs 
occurred, semi-truck stop, regular coming in and off dropping, 
you know, tons of drugs. Those were not going, you know, 
through the terrain. They were going through the border, border 
check points.
    Yesterday, San Antonio, Texas about 20 undocumented 
individuals in a semi. So my point is you have got a wall yet 
you have got most of the traffic, according to most of the 
folks I have talked to at the border, through the check points, 
existing border check points.
    So, you know, those are my questions. Do you invest in a 
border or do you invest in better X-ray machines at the border 
crossing stations? Comment or statement, thank you.
    Ms. Gambler. I think that is absolutely the right questions 
that we should be asking. It is important for CBP to be able to 
provide information on their plans so that decision makers in 
Congress can evaluate those plans and determine what would be 
the most effective use of resources.
    So I think you are asking a very important question about 
technology and infrastructure deployments.
    Mr. Correa. Thank you.
    Madam Chair, I yield.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mr. Smith from Texas.
    Mr. Smith. All right. Thank you, Madam Chair. Thank you all 
for your expertise and your dedication to our country. It 
really is a privilege for us to hear you all today. You are on 
the front lines. You know first-hand what is going on.
    Mr. Luck, before I address some questions to you, let me 
preface the questions by saying that when I was first elected I 
represented over 100 miles of Texas-Mexico border. That sort of 
riveted my attention on the particular subject.
    Over the years, I have seen some examples of what works and 
does not work. We all know we need a combination of physical 
structure, personnel, and technology. In San Diego, for 
example, you have a double fence that has succeeded in stopping 
illegal immigration by about 95 percent.
    Years ago, I know you were in the El Paso sector, chief of 
operations there, but a former Member of Congress, Silvestre 
Reyes, was once the border sector chief there. He stationed 
Border Patrol agents very, very close together.
    I don't know if it was 100 yards or whatever, and it was 
personnel intensive. But he stopped illegal immigration almost 
entirely. So that was an example of how that worked.
    I know in Texas a number of years ago we tried, at great 
cost, a virtual fence, and basically had to abandon it, in part 
because of vandalism by the illegal immigrants, in part because 
of false positives by the sensors, and in part because we 
didn't have enough Border Patrol agents backing up the 
technology.
    So I know technology has improved since then, and I guess I 
am saying that there are parts of the border that lend 
themselves more to one than another perhaps.
    I wanted to ask you where you thought it would be most 
beneficial to have a physical structure along the border, where 
you thought it might be most beneficial to have technology 
along the border?
    Mr. Luck. Thank you for the question, sir. It depends on 
the terrain and it depends on the threat. So in the urban 
areas, you want to have something that slows down the volume of 
the traffic flow. So we want to have a persistent impedance or 
impedance and denial system, such as a physical barrier.
    But that in itself doesn't work on its own. So it is a part 
of a package that we are concentrating on as part of our new 
strategy as it relates to the Executive Order and it relates to 
operational control.
    The first part of that is, of course, the impedance and 
denial, the deterrence and so forth. Then we have the domain 
awareness. That is knowing what we are going to do and what 
assets. That is the technology piece.
    The access and mobility and having direct access to the 
border and roads and infrastructure is a third piece. The last 
piece, of course, is the agents.
    So it is a combination of all four of those master 
capabilities that gets us to the operational control that we 
are looking for. That depends on the location and the threat.
    Mr. Smith. Right.
    Mr. Luck. So in California, as you mentioned, the physical 
barrier helps stop the flow, helps displace the traffic so that 
we can use technology assets, situational awareness, to detect 
that traffic and bring it to a law----
    Mr. Smith. Right.
    Mr. Luck [continuing]. Enforcement resolution.
    Mr. Smith. Would it be accurate to summarize what you just 
said as saying that in the urban areas and high-traffic areas a 
physical structure is necessary and in other areas maybe it 
would be more technology then physical structure?
    Mr. Luck. That is accurate, sir.
    Mr. Smith. OK.
    Mr. Luck. That is exactly what it is.
    Mr. Smith. Last week the President said something along the 
lines of 700 to 900 miles of physical structure along the 
border, roughly half the border--it is a 2,000-mile border on 
the south--on the southern part of the United States--but we 
have some fencing in place, obviously, some single, some 
double, some concrete. But would that 700 to 900 miles sound 
about right for where we need a physical structure?
    Mr. Luck. To be honest, sir, we haven't gotten that far.
    Mr. Smith. OK.
    Mr. Luck. We haven't gotten that far in determining what 
the years to follow will give us----
    Mr. Smith. Right.
    Mr. Luck [continuing]. Based on the budget. What we do have 
is a plan for 2017, a plan for 2018, and then a plan for 2019 
to 2023. So----
    Mr. Smith. OK. Let's take the outside plan, 2019 to 2023. 
How many miles of physical structure are anticipated by then?
    Mr. Luck. We don't have that number yet.
    Mr. Smith. Oh, you don't. OK.
    Mr. Luck. That is something that we are still developing.
    Mr. Smith. OK.
    Mr. Luck. There is a lot of variables that go into that. As 
we put impedance and denial on the border and other systems to 
back that up, it may have a trend of different things and that 
will happen as a result. The adversary does have, has a vote in 
this.
    Mr. Smith. Right.
    Mr. Luck. So we don't want to put specifically from point A 
to point B if the need isn't there.
    Mr. Smith. Understand. If you look at the urban areas and 
if you look at the high-traffic areas, you are going to come up 
with several hundred miles. I don't know exactly what it would 
be either. But clearly there is a role for the fencing, 
sometimes a double fencing which has worked particularly well 
on the Southern Border, I think.
    Mr. Luck. Absolutely, sir.
    Mr. Smith. OK.
    Mr. Luck. That as well as in some areas, a patrol area that 
is in between, right?
    Mr. Smith. Right, correct. Thank you, Mr. Luck.
    Thank you, Madam Chair.
    Ms. McSally. Thank you. The gentleman yields back.
    The Chair now recognizes Ms. Barragan.
    Ms. Barragan. Thank you.
    Mr. Michelini, I represent the Port of Los Angeles and 
drones are becoming more prevalent in commercial and personal 
use, sometimes coming into the land and air space of ports and 
other security-sensitive entry points.
    How is CBP dealing with security issues these drones 
present at ports? Is CBP working with the TSA and local law 
enforcement to address this problem?
    Mr. Michelini. CBP is working with the FAA on drones. Those 
small drones are still mostly a FAA concern. Those aircraft 
aren't supposed to fly, I mean, above 500 feet so they can sort 
themselves out from a manned aircraft.
    Specifically, around ports of entry, I am not up to speed 
on what any kind of CBP actions have done in that regard.
    Ms. Barragan. OK. Does anybody else on the panel want to 
add anything to that or kind of address if there are any 
jurisdictional issues that need to be resolved?
    Mr. Michelini. No, I am not aware of any jurisdictional 
issues. But I am aware that in the ports and in the critical 
infrastructure, we do work very closely with the local law 
enforcement to respond to any information that maybe, you know, 
indicate that there is drone activity in the area. But I am not 
aware of any jurisdictional issues.
    Ms. Barragan. OK.
    Mr. Luck, what cyber vulnerabilities has CBP identified in 
the Arizona Border Surveillance Technology Plan and what is 
CBP's cybersecurity strategy for the Southwest Border 
Technology Plan?
    Mr. Luck. Could you repeat that, please?
    Ms. Barragan. Sure. What cyber vulnerabilities has CBP 
identified in the Arizona Border Surveillance Technology Plan, 
the ATP? What is CBP's cybersecurity strategy for the Southwest 
Border Technology Plan?
    Mr. Luck. I would have to back to you on that. I don't have 
an answer for that question.
    Ms. Barragan. OK. If you could----
    Mr. Luck. Absolutely.
    Ms. Barragan [continuing]. Follow up, that would be great.
    Mr. Luck. Right.
    Ms. Barragan. OK.
    Mr. Luck, does CBP have the documented plan or strategy to 
achieve situational awareness along our borders?
    Mr. Luck. Yes, ma'am, and we get that through our 
requirements management process. Part of that is our C-GAP, 
Capability Gap Assessment Process, that we use to bring in what 
the gaps are in coverage and what gaps are that needed to be 
filled along the border.
    Then from there--and that is a bottom-up approach. From 
there, we decide on what the best courses of action are whether 
that is surveillance, technology, or whether that is a system 
or physical barrier.
    Ms. Barragan. OK.
    Ms. Gambler, in March 2014 the GAO reported that the CBP 
schedules and life-cycle cost estimates for the Arizona Border 
Surveillance Technology Plan and its three highest cost 
programs, which represented 97 percent of the plan's total 
estimated cost, met some but not all best practices.
    GAO recommended that CBP ensure that its schedules and cost 
estimates more fully address best practices such as validating 
cost estimates with independent estimates, and DHS concurred. 
What more remains to be done?
    Ms. Gambler. Yes, Congresswoman. On the schedules 
themselves, CBP has provided us with updated schedules, and 
they have shown significant improvements in quality. So we are 
continuing to look at those schedules to determine the extent 
to which the revised schedules fully meet the intent of our 
recommendation.
    As it relates to the life-cycle cost estimates, I want to 
talk about the estimates for two different programs: The RVSS 
and the IFTs. For the RVSS, DHS, and CBP--DHS has conducted an 
independent life-cycle cost estimate for the RVSS and has been 
working with CBP to reconcile those two estimates.
    We will be obtaining follow-up documentation from CBP and 
DHS on that effort and can certainly follow up with you after 
we have had a chance to look at that and make our own analysis.
    For the IFTs, we have not seen that CBP has yet done an 
independent life-cycle cost estimate for that program and in 
line with what we recommended, we think it is important that 
they do so.
    Ms. Barragan. Do you have an estimate of a time line on 
when this might be done and we have something back?
    Ms. Gambler. With regard to us looking at the independent 
life-cycle cost estimate and the reconciliation with the RVSS, 
we are actually following up with CBP on that. So hopefully we 
can get back to you on that pretty quickly.
    Ms. Barragan. Great. Thank you.
    I yield back.
    Ms. McSally. The Chair now recognizes Mr. Hurd from Texas 
for 5 minutes.
    Mr. Hurd. Thank you, Chairwoman, for your focus on this 
important issue, and I would like to echo my colleagues in 
thanking the panelists for being here.
    With 820 miles of the border, I recognize the difficulty of 
you all's task, having spent 9\1/2\ years as an undercover 
officer chasing terrorists, nuclear weapon proliferators, you 
name it, I recognize how difficult it is to secure our border.
    I was just proud of that, my first bill signed into law was 
actually something that helped Border Patrol agents make sure 
their pay wasn't getting cut. So this is something that is very 
important to me.
    It is 2017, and I think we as a Government should have done 
a better job of helping you all deploy technology along the 
border to do your jobs.
    I guess my first question is--and maybe this goes to you 
first, Mr. Luck and Mr. Owen, if you have opinions I would 
welcome that as well. Currently right now how is computer 
vision being used in border security?
    Mr. Luck. Computer vision?
    Mr. Hurd. Yes, sir.
    Mr. Luck. Could you help me address that?
    Mr. Hurd. Sure. You know, we have these fixed towers. We 
have sensor technology. We have all this data that is coming 
in. Are we using automated tools in order to determine whether 
the movement of something is dangerous or is something that 
requires interdiction by Border Patrol?
    Mr. Luck. Yes. I mean, we are doing some predictive stuff 
as you may know that we are using our partners. We have agents 
assigned to extend our borders, and we are reusing systems with 
our partners in different countries to help to predict what the 
traffic flows will be.
    So those are all--and collecting information and using that 
information to help us better prepare for what is coming to the 
border. So we are using that. The systems that we use for 
processing has evolved.
    To comment on Ms. Gambler's comments on how we track the 
assets that we do use, that has been implemented into our E3 
system. So we are using an array, there is a lot of data coming 
in.
    The intelligence agents that are out there have an 
apparatus in either their sectors or at the headquarters 
through operation through our Office of Intelligence to be able 
to collate the data----
    Mr. Hurd. Sure.
    Mr. Luck [continuing]. That they get and the intelligence.
    Mr. Hurd. Gotcha. Gotcha. So how much of the current system 
automates detection, right? In this day and age, we can deploy 
any number of systems, lidar, radar, fiber optic cable to 
detect a bunny rabbit from a human. We should be able to 
automate that event to where a computer can tell us that isn't 
a bunny rabbit or a deer or a cow.
    I hope we can say if it was cow with fever tick or not with 
fever tick, but that is a whole other question in south Texas. 
Is that being done?
    Mr. Luck. As far as the systems we have with integrated 
fixed towers, in some of our mobile surveillance capabilities, 
that is being done where we have multiple layers, you have the 
radars, and then you have the cameras that skew to the 
movement.
    Then an alarm that will go off in the control room that 
will, say, instead of 100 cameras that an officer, an agent has 
to look at, there is an alarm that goes off that says there has 
been an incursion----
    Mr. Hurd. Gotcha.
    Mr. Luck [continuing]. And then it skews over and it helps 
with that. So that is the automation that we are looking for. 
We have some work to do to connect everything so that it all 
talks together and with all the systems that we have amongst 
the components, but that is what we are striving for.
    Mr. Hurd. Right. So do you have an integrated picture back 
at headquarters or does the Joint Task Force West have an 
integrated picture down in San Antonio on the Southwestern 
Border?
    Mr. Luck. They don't have an integrated picture that they 
can cue to to look at the activity----
    Mr. Hurd. Gotcha.
    Mr. Luck [continuing]. And see that.
    Mr. Hurd. Does the individual agent on the ground--like, I 
was recently in Del Rio humping through some Carrizo cane and 
it is not a pleasant experience, especially at 105-degree 
weather.
    If there was a detection event, does that individual agent 
that may be patrolling that part of the sector, do they get 
notification themselves?
    Mr. Luck. Yes, through our ICAD system.
    Mr. Hurd. Is that a walkie-talkie? What is the ICAD system?
    Mr. Luck. Right. The ICAD system is the system that they 
use in dispatch. When an underground sensor goes off, it will 
automatically hit and they will call it out and the agent can 
respond to it. That is what they use.
    Mr. Hurd. Madam Chair, if we could have another round?
    Ms. McSally. We are.
    Mr. Hurd. OK, great. I yield back the time I do not have.
    Ms. McSally. Thanks. The gentleman yields back.
    We are starting a second round. I want to actually continue 
on with that line of questioning. Situational awareness to the 
actual agent is something that I have been pushing on since I 
have been the Chairwoman of the subcommittee.
    If we are bringing information together, but it is back in 
the operations center or the personnel that are on the ground 
doesn't have that--you don't want to overload them with 
information, but decision-quality information for them is key. 
Getting that over a voice is not ideal, you know, given the 
technology that we have.
    Similarly, the mobile surveillance cameras, last time I was 
out there, we were talking about how just the person at the 
truck has that situational awareness. So what sort of 
initiatives are on-going related to bringing the data and 
information together in a fused way?
    But then also providing appropriate information to the 
agents so their SA is increased as they are out there putting 
their lives on the line?
    Mr. Luck. One of the things that we are working with now in 
the platform that we are using is tracking sign cutting and 
modeling system.
    What that does is when an event takes place, automatically 
when the agent calls in, ``Hey, I have got a sign of three that 
I am working,'' automatically that starts a track, either 
geospatial track or geolocator track of where that agent is and 
what he is doing.
    So, what it does is it fills in the gaps and then other 
technology can be used to assist him in that arena. So they are 
doing it a lot and it tracks what the movements are, what 
technology is utilized and things that can be used.
    Now, what we want to do--and that then transfers over when 
the agent makes an arrest. That transfers over to the E3 
processing system so that it can be used to capture all of the 
event that took place.
    Ms. McSally. But the agent is still predominantly getting 
information by voice is the point, right?
    Mr. Luck. Right.
    Ms. McSally. I mean, is there any sort of requirement or 
something in the works for Blue Force Tracking? Again, some 
sort of iPad-like wristwatch-like situational awareness for the 
agent? We had a friendly fire death in our sector?
    You know, that just builds their situational awareness so 
they can see where are the good guys, where are the bad guys, 
what is going on? So it is not just the guys in the air-
conditioned ops center that are seeing that.
    Mr. Luck. Right. What we know that that is a gap, and we 
are trying to do that. Some of that is gaps in communication, 
in having access to systems that track that like a down screen. 
We are using it in some areas for SAUS, for example, that the 
agent has the ability to see where the SAUS sees.
    But as far as the ability to have something on them that 
can be used to track it, there are comms issues with that, and 
there is an expense. Blue Force Tracking, of course, has to be 
negotiated with the union to try to get that as part of the 
picture.
    Ms. McSally. So what you are saying is there is no 
requirement or, you know, technology, development in its 
process or funded to specifically provide increased situational 
awareness to the agent on the ground?
    Like, yes, I know you are talking about some ideas, but we 
don't actually have a program or a system or a requirement that 
is moving any of that forward that right now?
    Mr. Luck. Not that I know of, ma'am, to be honest with you.
    Ms. McSally. OK. Following up on the tactical UAVs, you 
talked about it. Can you give me a little update, your testing 
in Arizona upcoming? Where are you doing that?
    Mr. Luck. OK. So what we have done with the UAV is we 
worked with partnership with Air and Marine.
    Ms. McSally. Yes.
    Mr. Luck. We have got an MOU in place with the Federal 
Aviation Administration so we can test those. We have bought a 
suite of different capabilities, one being the quadcopter that 
can be up in the air for about 30 minutes or so.
    The other is a Raven type where it can be longer distance 
for longer time. Then the other one has got a 3-hour timespan. 
We bought some of those and now we want to test those in an 
operational testing environment in Arizona, in south Texas, and 
in Swanton, Vermont coming up in September.
    Ms. McSally. OK. So will you follow up as to where you are 
doing that in Arizona? I might want to go out and scout?
    Mr. Luck. Absolutely, ma'am.
    Ms. McSally. Also, to go back on Ms. Barragan's line of 
questioning, are you considering a cybersecurity elements of 
that? If you are just--off the shelves can be great for quickly 
getting capabilities to the agents, but if they can be easily 
jammed or intercepted----
    Mr. Luck. Yes, ma'am.
    Ms. McSally [continuing]. Or taken over.
    Mr. Luck. That is part of it and we are reaching out to the 
industry and some of the things going on in Silicon Valley to 
help with the sensors and so forth.
    Ms. McSally. Great. I want to reiterate--brought it up 
several time. In southern Arizona right now near the border we 
do have Cochise College with a very robust UAV training 
capability. They have been wanting to partner with you all on 
this tactical UAV issue.
    We have made some introductions. I think not everybody in 
the bureaucracy is talking to the right people, but we would 
love to follow up with that, especially during your testing and 
evaluation----
    Mr. Luck. Very good.
    Ms. McSally [continuing]. So that you are not reinventing 
the wheel if there are training capabilities out there already.
    Mr. Luck. Very good.
    Ms. McSally. I yield back for this round.
    Mr. Correa, you are up for another 5 minutes.
    Mr. Correa. Thank you, Madam Chair. Just wanted to get back 
to Ms. Gambler. I didn't quite understand your answer when I 
asked if CBP had the matrix necessary to assess the 
effectiveness of and the existing border wall and possibly a 
proposed border wall. Do we have the matrix?
    Ms. Gambler. CBP does not currently have metrics in place 
to assess the contributions that existing fencing is making to 
border security efforts. That is what we reported on in our 
report on existing fencing earlier this year.
    We recommended that CBP put in place those metrics to 
include using the existing data they have to be able to assess 
what contributions fencing is having to border security.
    Mr. Correa. Thank you. Question to the panel, if I may? My 
prior life as the chair of Select Committee in California in 
the Senate of California and Mexico, I took a number of tours 
of the border area, San Ysidro, San Diego.
    I noticed the California Highway Patrol has a station there 
where I believe every semi-truck that comes through is checked 
for safety every quarter to make sure every truck that comes by 
is up to California vehicle code.
    No. 2, every semi, I believe, is checked for radiation, and 
they are also checked for other, you know, possible issues. My 
question to you is, given that situation, that investment the 
State of California has made in assuring the safety of 
Californians, do you have that same relationship with the other 
border States in terms of coordinating, making sure you share 
information from California and New Mexico, Arizona, and Texas?
    Mr. Owen. Well, sir, I will tell at all the ports of entry 
along the Southwest Border it is very common to find the State 
authorities just outside our compound looking at the trucks for 
the road worthiness, the safety issues, as you mentioned there.
    As for the radiation screening, that is a function that we 
perform within the ports of entry. Every truck, every passenger 
vehicle coming into the United States is first screened for 
radiation before it ever can leave the ports. We have been 
doing that since about 2002. Again, most people aren't aware of 
that activity that takes place.
    We do coordinate with the State transportation police 
outside those gates on different activities and things of that 
nature. So that is a, what you see in California is very common 
along the larger land border crossings along the Mexican 
border.
    Mr. Correa. So I guess my question is--so I assume you do 
communicate with local, State, and authorities in terms of 
coordinating your data to make sure if there are any patterns 
there, you actually can pick them up?
    Mr. Luck. In terms of----
    Mr. Correa. Patterns of possible illicit activity?
    Mr. Luck. Oh, patterns. We do. Again we are members of the 
various task forces that work along the Southwest Border where 
that information is shared in terms of the tactics, what we are 
finding, the trends and things of that nature.
    So I would argue that on the field operations side and I am 
sure on the Border Patrol side, communication with the State 
and local authorities along the border region is very strong.
    Mr. Correa. Secretary Kelly has mentioned that, right now, 
coordination, cooperation with Mexican authorities is actually 
very good. Again, my prior life, I took a tour of the southern 
Mexican border.
    I noticed most of the vehicles coming into Mexico from 
south of Mexico were X-rayed. A lot of that data is then 
digitalized, sent to Mexico City, and I believe it was shared 
with Langley. So it added a whole layer of multi-layered 
defense.
    Is that relationship still there? Does it exist? Has that 
expanded? Tell me, how are we working with our partners, not 
only south of the border, but around the world in terms of 
enhanced security.
    As Secretary Kelly has said, you know, if those things, 
items get to the border, you have already kind of lost. You 
have got to interdict those illicit items before they actually 
get to the border.
    Mr. Luck. Right. Well, I will tell you that within the 
Office of Field Operations we have very strong partnerships at 
52 seaports around the globe as part of our container security 
initiative where we identify high-risk shipments before they 
are headed this way. We have partnerships in Colombia, in 
Honduras, in Panama that are very effective in terms of the 
narcotics interdiction.
    The activities at the port of entry, I think in the last 3 
years since I have been in this position, very much improved 
relationship with the Mexican authorities, to the point that in 
several locations in Arizona, we have Mexican customs that are 
in the United States conducting joint inspections with us as 
part of a unified cargo inspection process.
    Reduces some redundancies. It helps facilitate the lawful 
trade and travel. Been very effective within Arizona. So I can 
speak for the field operations, the relationship with Mexico is 
very strong. I defer to the chief on----
    Mr. Correa. I am running out time. So very quickly, I would 
say it would be good to create a matrix to assess how effective 
that relationship is in stopping and inspecting and being 
effective at the border. Thank you very much.
    I yield, Madam Chair.
    Ms. McSally. The gentleman yields.
    The Chair now recognizes Mr. Hurd from Texas for 5 minutes.
    Mr. Hurd. Thank you. Thank you, Chairwoman. Again Mr. Luck, 
Mr. Owen, same question for both of you all, you know, take a 
minute, minute and a half. Mr. Luck, describe your dream tech 
scenario for the CBP of tomorrow.
    Mr. Luck. My tech scenario would be having the right 
mixture of--based on the threat, having the right mixture of 
technology and we can't do it alone--no piece of technology has 
ever made an apprehension, that informs and talks to all the 
other component pieces that we have within CBP.
    So that that information is shared immediately to all 
components and agents and officers who need it. That would be 
my dream scenario.
    We have systems out there that are stand-alone systems that 
we would need--that, in my view, we need to have speak to one 
another and share that information with whatever piece of 
technology that is, so that we are not redundant in those 
efforts and that we know exactly we have the same situational 
awareness regardless of who that operating entity is.
    Mr. Hurd. Good copy. Mr. Luck, please correct me if I am 
wrong, I feel like the existing technology that is being used--
there is an overwhelming, there is too much of an operating 
burden on the person using it. We need technology that is a 
little bit more user-friendly.
    We need to make sure that this is integrated, as you say, 
across the various elements, not just within a team within its 
particular sector, but across sectors and even back at 
headquarters.
    As Chairwoman McSally was saying, getting that information 
in the hands of the individual agent, whether they are in their 
vehicle, on foot, humping through Carizzo cane and that allows 
them to do only what they can do, the hardest part of the 
interdiction.
    In anything that I described, am I out of line?
    Mr. Luck. No, sir. That is appropriate.
    Mr. Hurd. Good copy. We are trying to get you some dinero 
to do all this, by the way. That is why I get frustrated with 
all this talk about a wall, because $24.5 million a mile, that 
is a lot of money.
    You can deploy a lot of off-the-shelf technology to do what 
I just described for half a million dollars a mile. If we add 
this out to the additional 1,350 miles of the border that 
doesn't have fencing, that is $33 billion.
    I can use $32 billion of that for a lot of other things, 
like give you all's folks more pay for the hard work that they 
do. Give Mr. Michelini some more air assets to do what he does. 
That is where we are trying to go with this idea of a smart 
wall that leverages technology to make sure the men and women 
in Border Patrol are doing their thing.
    Mr. Owen, same question to you.
    Mr. Owen. Yes, sir. Well, the technology that really is the 
cornerstone of our interdiction activities in the ports of 
entry, is the large-scale, nonintrusive inspection technology. 
What we need is technology that has the capability to keep that 
cargo flowing.
    On the passenger side, we have drive-through, low-energy 
systems where the passengers, the travelers, can stay in the 
car as we scan the car safely for the presence of any 
contraband. Those have been a game-changer for us in the 
passenger arena.
    What we have on the horizon, and what we are working with 
our science and technology director, as well as some of the 
vendors and manufacturers, is a similar drive-through systems 
for cargo.
    The challenge we have with cargo trucks now is you 
generally have a single energy system. You have to take the 
driver out of the cab. You can't use a high-energy system on 
the driver. That slows things down.
    So with those current systems, only about seven trucks an 
hour can be scanned. The technology that is on the horizon that 
I really see as a game-changer for our cargo inspections, is a 
multi-energy system that you can ratchet down to a low-energy 
version to scan the cab.
    As the driver and the cab clears, you ratchet up the energy 
level to high-energy to penetrate the cargo. That will allow 
the trucks to continue to keep moving, not have to come to a 
stop. We estimate 10 times as many inspections can be done an 
hour with that technology.
    Mr. Hurd. That is great.
    Mr. Owen. So that is on the horizon. We are looking at 
several locations where we will be deploying that, and I really 
see that as a game-changer for us in terms of our interdiction 
efforts in cargo shipments.
    Mr. Hurd. Chairwoman, I think we should put that on the 
list.
    Yes. My final question, and maybe it is for you Mr. Luck, 
or Ms. Gambler, how much money do we spend, you know, in a 
year, here, to this date, on tunnel detection?
    Mr. Luck. I don't know how much money we spend. I know that 
we are working a lot with partners on most recent tunnel 
detection capability. It is a vulnerability and a threat that 
we need to really think seriously about.
    We are working with industry. We are certainly working with 
our partners from Israel to give us the latest and greatest. We 
have an apparatus to kind of get that best technology.
    Mr. Hurd. We are worried about tunnel detection under 
physical barriers like the existing fencing we have, is that 
correct?
    Mr. Luck. Yes, we are. Part of the plan for future fencing 
would be to put fiber optics in there to help with it.
    Mr. Hurd. OK.
    Ms. Gambler.
    Ms. Gambler. I would just add, I think we may have some 
data on that, and I would be happy to follow up with your 
office and provide what we have.
    Mr. Hurd. We will, as well. Thank you all very much.
    Thank you for the indulgence, Madam Chairwoman.
    Ms. McSally. Absolutely.
    The Chair now recognizes Mr. Rutherford for 5 minutes.
    Mr. Rutherford. Thank you, Madam Chair.
    I am particularly drawn to the circle here, the 
apprehension life cycle, as you all call it, because I have 
often said the same thing about this wall concept, that, you 
know, a wall is not a barrier. It is just an impediment.
    What we need is to provide you with the technology that you 
can detect, track, apprehend in a secure way, these folks who 
are coming over the border.
    Let me ask. The technology when we visited the Southern 
Border specifically, it seemed like--as far as Fort Huachuca, 
they had pretty good integration of communications and 
intelligence going on.
    Further east of that, the Rio Grande Valley, there didn't 
seem to have been as much in the way of technology being 
applied. It almost looked like they ran out of money or 
something, you know? Or maybe it is just in the next phase.
    But it just didn't seem like the Rio Grande Valley was 
getting the attention that the other areas that we had observed 
had.
    Mr. Luck, can you speak to that? The needs, specifically in 
the Rio Grande Valley.
    Mr. Luck. Yes, sir. You are right. We didn't have enough 
attention on Rio Grande Valley because the traffic was coming 
through Arizona. So our technology lay down and these things 
take time. Some of these options take more time than others. We 
are trying to get Arizona under control.
    So and now the focus is on the Rio Grande Valley. So we are 
trying to bring technology in there and we will be bringing 
technology in there.
    In the way of remote video surveillance systems and our 
ability to do persistent surveillance, we do have the DOD reuse 
tactical aerostats there that have been very, very good.
    We have the help from our partners in Air and Marine with 
some of the systems and sensors that they have, as far as 
flight hours. Now we are trying to concentrate and move into 
some of our persistent surveillance technologies and 
relocatable towers.
    That is what we want, to move into RGV. We can do it 
quicker and they have the sophisticated camera systems that 
will give those agents more situational awareness. In that 
area, as you know, the Carizzo cane problem, we have to have 
height to be able to see into that.
    So we are also testing different technologies that will 
maybe help us get more of a situational awareness in that 
Carizzo cane, such as foliage-penetrating radars, and things of 
that nature to try to test new things that helps us get that 
better picture. But that is, we are recognizing that we need to 
have more technology in the Rio Grande Valley.
    Mr. Rutherford. I believe there is a significant increase 
in the technology budget to help with that, correct?
    Mr. Luck. Yes, and we thank this committee for that.
    Mr. Rutherford. Let me ask because another piece of the 
life cycle, as you call it, the apprehension phase of that, 
takes boots on the ground.
    Mr. Luck. Absolutely.
    Mr. Rutherford. I mean you just have to have boots on the 
ground. It is just that simple.
    Mr. Luck. Yes, sir.
    Mr. Rutherford. Is there anything that we can do to help 
you all in that process, acquiring more boots for the ground, 
the training, the recruitment, all of that?
    Mr. Luck. We are working very, very diligently with that. 
HRM has made a lot of advances, over 40 improvements in their 
pre-employment process. We are doing some things with waivers 
with dedicated people that have proven their integrity, with 
waivers of the polygraph. So and there is a robust----
    Mr. Rutherford. Is that helping?
    Mr. Luck. Yes, sir.
    Mr. Rutherford. OK.
    Mr. Luck. There is a robust effort toward recruitment right 
now.
    Mr. Rutherford. Very good.
    Madam Chair, I yield back.
    Ms. McSally. Thank you. The gentleman yields back.
    I am gonna do one more round, if you don't mind?
    Mr. Correa. Sure.
    Ms. McSally. Great. Thank you.
    Ms. Gambler, you talked about--on several hearings, we have 
talked about the starting to measure the use of technology in 
apprehensions in order to better understand the metrics of 
whether the technology is helping.
    Do we have any assessments? I mean, we have been talking 
about this for over a year, since I have been the subcommittee 
chair. Do we have any assessments of how any of the 
technologies are assisting in the apprehensions, or do we not 
yet have enough time of doing that?
    Ms. Gambler. So in response to the recommendation that we 
made in our report on surveillance technologies from a few 
years ago, Chairwoman, CBP has provided us with one sample of 
how they have tried to look at metrics. So we have been 
evaluating that, but we need to see them do it more 
systematically for across the border.
    So in order to adjust our recommendation we really need to 
see that CBP and Border Patrol are both looking at this from a 
more systematic perspective.
    Ms. McSally. All right. Thanks.
    I am wondering, Mr. Luck, the deployment of IFTs and some 
of the other technology more recently in Arizona, is there any 
sort of assessments on that you could--short-term assessments 
on the effectiveness of that?
    Obviously, you don't want correlation to equal causality 
because you don't know whether you are deterring activity or 
whether things are shifting for different reasons. But do you 
have any sort of feedback on how the IFTS and other technology 
are working in Arizona?
    Mr. Luck. So the reports that I am getting from the short 
time that they have been on live with the last towers in IFT in 
Douglas, the view sheds and the area that they can cover and 
the workability of those systems are functioning properly. It 
is a great asset and a needed asset in those environments.
    MSCs, all the RVSS, the refresh that we are doing 
periodically for the RVSS until we can get the replacement is 
really working well in Arizona, and other places as well.
    Ms. McSally. Great. So at this point that is anecdotal, 
obviously, but, I mean, it is good feedback from those that are 
out there in charge building their situational awareness. It is 
going to be helpful to figure out the metrics or the 
measurement, right, and the integration with the other systems.
    Is that fair, Ms. Gambler?
    Ms. Gambler. That is right. We are happy to, you know, help 
provide feedback to CBP on that process as well as they are 
developing metrics. That is something that we have talked about 
and offered in the past.
    Ms. McSally. Great. Thank you.
    Oh, go ahead. Yes?
    Mr. Luck. Ma'am, if I could just add on to the status on 
one of the recommendations from the GAO as far as our system 
E3, our processing system and the ability for agents to use a 
check-down box as a response to adding technology to the 
apprehension and the processing phase?
    Ms. McSally. Yes.
    Mr. Luck. That has been accomplished and is working well. 
So they have a drop-down box that has to be checked regarding 
what technology and other assets, and they can make multiple 
choices as----
    Ms. McSally. Right.
    Mr. Luck [continuing]. As it relates to the apprehension.
    Ms. McSally. That is great. Mr. Owen, you talked about 
technology that is maybe on the cutting edge here, the multi-
energy system, and the NII technology being helpful. But the 
reality is we still have massive amounts of opioids, synthetic 
opioids, the hard drugs that are, you know, killing Americans 
right now in a crisis level, coming mostly through the ports of 
entry.
    So what other technologies do we need in order to get what 
we are missing? I mean, we know what we are getting, but we are 
obviously missing a lot still because of the epidemic that we 
have going on in our country. So what else----
    Mr. Owen. Yes.
    Ms. McSally [continuing]. What else do we need?
    Mr. Owen. Yes, and it is very challenging. I mean, clearly 
they hide in the numbers: 76 million passenger vehicles that 
crossed the Southwest Border last year and another 6 million 
trucks.
    It is very difficult to inspect all of those so we rely on 
intelligence. We rely on our advanced targeting capabilities, 
the advanced information that we have.
    Then oftentimes it comes down to the instinct and training 
of the officers on primary where they just sense something is 
wrong and they send those individuals.
    The current Fentanyl challenge is compounded by the two 
main pathways. We have the Fentanyl from China that is 
primarily entering through the international mail system, as 
well as the express courier hubs. The volume is just 
overwhelming in that environment.
    E-commerce continues to skyrocket. I think there were about 
360 million parcels last year, and it significantly increased 
this year. So very, very difficult in that environment and as 
well as on the Southwest Border. They hide in the numbers.
    I think we have very dedicated men and women that use all 
of the tools that this committee and others have provided us. I 
think we are effective, but there is stuff that gets through, 
no doubt.
    Ms. McSally. What is your sense--actually I think it is 
important for people to realize that they are coming in from 
China through e-commerce.
    Mr. Owen. Yes.
    Ms. McSally. What is your sense of the percentage that is 
coming through that versus coming up through the border?
    Mr. Owen. I am not sure I have a percentage. I can tell you 
though that the testing that we have done and the purity of the 
Chinese Fentanyl coming through the mail and through the 
express is very close to 100 percent. It is very, very strong, 
very, very deadly.
    The purity of the Fentanyl coming across the Southwest 
Border is much less. It is still a very significant threat, but 
you have got two different challenges that you are dealing 
with. Hopefully with our engagement with our international 
partners, we will see some relief in that area as well.
    Ms. McSally. OK. Thanks for highlighting that. Time is up.
    The Chair now recognizes Mr. Correa.
    Mr. Correa. Thank you, Madam Chair.
    Very quickly again to Mrs. Gambler, what remains to be done 
in order for the agency to better measure the effectiveness of 
its capabilities? Is CBP using all of the tools available in 
the best way possible, both for border security and measuring 
performance?
    I say that from the following perspective that we talk 
about a lot of things we can do at the borders. Smart border, 
inland ports, new technology that, in my opening remarks I 
talked about some of the agents not being able to talk to each 
other.
    They could see each other, but their communication devices 
weren't effective, and that reminds me of the Grenada invasion, 
you know, a couple of decades ago. We still have that same 
situation.
    Meat and potatoes, basically investing in common everyday 
technology to make our personnel much more effective. Multi-
energy system that you are talking about, Mr. Owen, I took a 
tour of a San Diego, I am not gonna mention the names, of a 
manufacturer in San Diego that apparently had deployed some of 
these systems in the Middle East, not here, but in the Middle 
East.
    Yet they were able to detect organics of drugs. You could 
actually could drive the trucks through, and I believe it was 
10 to 20 seconds they could fully check a truck. If they saw 
anything negative then you would pull them over to secondary 
inspection.
    So again, a lot of tools in the toolbox, a lot of 
technology, yet the meat-and-potatoes stuff still needs to be 
addressed. And that is where I think these metrics of measuring 
what is most cost-effective from the perspective of the 
taxpayers and public safety is important.
    Like the Chairperson was saying right now, now you are 
talking about direct shipments from China, you know, directly 
through the mail. There is another challenge, and I wouldn't 
know how do you even begin to address that one.
    But again, these are all the challenges that we have to 
look at, and where do we begin to invest? I think we have got 
to come back to the metrics.
    Open statement, anybody care to address it?
    Ms. Gambler. Ranking Member, I would add, from our 
perspective and what our work has shown, I mean, I think there 
are two, you know, kind-of, you know, key steps that are part 
of this process. As one that we need to see the department and 
CBP just set the metrics.
    We have been recommending metrics in the border security 
area for several years. So they actually need to make decisions 
on what they want to measure and set what those metrics are.
    The second step in that is that CBP collects a lot of data 
as an agency, and certainly what Chief Luck was describing in 
terms of them now requiring asset assist information, for 
example, to be entered into their database. That is a really 
positive step.
    But what they need to do now is use the data they have 
systematically to measure relative to the metrics and goals 
that they have set.
    So those are really two, you know, key fundamental steps 
that we think are an important part of this and assessing what 
we are getting out of the investments.
    Mr. Correa. Any other comments from the others?
    Thank you. Madam Chair, I yield.
    Ms. McSally. OK. Well, I appreciate it. The gentleman 
yields back.
    We were just talking up here. I think there is some of the 
themes here are worth as we are looking toward a border 
security bill to consider working together on some of the 
integrating technology, and increasing situational awareness in 
the port of entry technology. Those are some of our do-outs 
that we are gonna follow up on as we look to a future 
legislation.
    I want to thank the witnesses for your valuable testimony. 
I thought it was a good discussion, and Members for their 
questions. Members of the committee may have some additional 
questions for the witnesses. I think you also have some that 
you took for the record as well. I would ask you to respond to 
these in writing. Pursuant to committee rule VII(D) the hearing 
will be open for 10 days.
    Without objection, the committee now stands adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
